<html>
<title> - ENVIRONMENTAL MANAGEMENT PROGRAMS OF THE DEPARTMENT OF ENERGY</title>
<body><pre>[Senate Hearing 109-351]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-351
 
     ENVIRONMENTAL MANAGEMENT PROGRAMS OF THE DEPARTMENT OF ENERGY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   On

     ENVIRONMENTAL MANAGEMENT PROGRAMS OF THE DEPARTMENT OF ENERGY

                               __________

                           NOVEMBER 15, 2005


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
26-921                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD M. BURR, North Carolina,     TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               JON S. CORZINE, New Jersey
GORDON SMITH, Oregon                 KEN SALAZAR, Colorado
JIM BUNNING, Kentucky

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
                  Bob Simon, Democratic Staff Director
                  Sam Fowler, Democratic Chief Counsel
              Clint Williamson, Professional Staff Member
            Jonathan Epstein, Democratic Legislative Fellow


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Allard, Hon. Wayne, U.S. Senator from Colorado...................     3
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............     1
Rispoli, James A., Assistant Secretary for Environmental 
  Management, Depart of Energy...................................    12
Salazar, Hon. Ken, U.S. Senator from Colorado....................     8
Smith, Hon. Gordon, U.S. Senator from Oregon.....................     2
Tuor, Nancy, President and CEO, Kaiser-Hill Company, LLC, 
  Broomfield, CO.................................................     6

                                APPENDIX

Responses to additional questions................................    33


     ENVIRONMENTAL MANAGEMENT PROGRAMS OF THE DEPARTMENT OF ENERGY

                              ----------                              


                       TUESDAY, NOVEMBER 15, 2005

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Pete V. Domenici, 
chairman, presiding.

          OPENING STATEMENT OF HON. PETE V. DOMENICI, 
                  U.S. SENATOR FROM NEW MEXICO

    The Chairman. The hearing will please come to order.
    Senator Bingaman has advised me that he's attending a 
Finance Committee hearing, which is urgent, on the tax matters, 
and that he will come soon. There are two additional Senators 
that have matters in their State that are similar, who have 
indicated they're going to come, but we have seven stacked 
votes at 10:45, so it's important that we start.
    I have a statement that I was going to give, but I'm going 
to put it in the record and abbreviate my remarks.
    Today, we're going to hear from those who were involved in 
the cleanup at Rocky Flats. We're going to hear from Senator 
Allard and Assistant Secretary Rispoli. And we're going to hear 
from Ms. Tuor. They're going to talk about the success story. 
Then we're going to proceed with testimony regarding the other 
activities regarding cleanup.
    Suffice it to say that, aside from the statement which 
recaps all of this, one of the success stories--real success 
stories--with reference to environmental cleanup has been the 
Rocky Flats story, the Rocky Flats event, and I am very pleased 
to hold it up, because it does set forth that something can be 
done, and we can get to the end of the line. We don't have to 
continue for year upon year with a project that is in the 
nature of cleanup. I'm hopeful that we're going to, by 
analyzing all this, get to the bottom of the difference between 
one cleanup project and another. I'm not sure we can do that, 
but I have a surmise about one of the differences. But let's 
proceed.
    Senator Allard, we'd like to hear from you first.
    [The prepared statements of Senators Domenici and Smith 
follow:]

       Prepared Statement of Hon. Pete V. Domenici, U.S. Senator 
                            From New Mexico

    This hearing of the Energy and Natural Resources Committee on the 
Office of Environmental Management at the Department of Energy shall 
come to order.
    The purpose of this hearing is to evaluate progress in the 
Environmental Management (EM) Program of the Department of Energy (DOE) 
and to learn about the recent success story at the former DOE weapons 
facility at Rocky Flats in Colorado.
    The EM program inherited the responsibility for the cleanup of 114 
sites involved with past nuclear weapons activities. Those sites cover 
a vast area, over 2 million acres--the equivalent land area of Rhode 
Island and Delaware combined.
    This program is the largest single function within the Department, 
the Congress has funded this program at $6.66 billion in FY 06, $116 
million more than the Administration's budget proposal. This represents 
nearly one-third of the Departments total budget.
    In addition to a progress report on the overall EM programs, I look 
forward to learning from our witnesses today about the success at Rocky 
Flats and the issues associated with cost overruns and project delays 
at the Hanford Site and other current issues.
    Specifically on Rocky Flats, I am hopeful that this monumental 
achievement is not discounted as a one-time miracle. The Department 
faces numerous challenges in the management of operations and the 
cleanup of liabilities from legacy sites. It would be an unacceptable 
outcome if we did not apply the successful lessons learned during the 
clean-up at Rocky Flats.
    I understand the desire to impose greater rigor in the management 
of the Department's projects. When you look at the Waste Treatment 
Plant and the Yucca Mountain Project, clearly there is a need to impose 
fundamental principles of project management. However, I want to 
caution the Department not to forget the wonderful result from daring 
to accelerate and overachieve. We have the perfect example of these 
lofty goals before us today.
    I would ask the Department not to learn the wrong lesson from its 
present challenges. The American public does not want you to default to 
decade's long schedules and unfathomable budgets. We want you to look 
for constant improvement and acceleration.
    I hope that our witnesses today can tell us some good news and 
address these complex issues so that we can all better understand the 
status of clean-up of our facilities from the Cold War.
    Testifying today are:
    My friend and colleague, Senator Wayne Allard from the great State 
of Colorado.
    The Honorable Jim Rispoli, Assistant Secretary of Energy for 
Environmental Management of the Department of Energy.
    And finally, Nancy Tour, President and CEO of Kaiser-Hill Company 
in Colorado. Welcome.
                                 ______
                                 
   Prepared Statement of Hon. Gordon Smith, U.S. Senator From Oregon

    Chairman Domenici, thank you for convening this hearing on the 
Environmental Management Programs of the Department of Energy. We all 
understand the importance of following through on the cleanup of the 
extensive environmental problems resulting from our nuclear weapons 
research, development, and production programs of the past half 
century. Congress and the Administration share the responsibility for 
ensuring that cleanup programs are scientifically sound and efficient. 
Hearings such as this are essential to our successful collaboration in 
carrying out that cleanup responsibility.
    I also want to thank Mr. Rispoli for testifying on behalf of the 
Department of Energy to share information concerning the Department's 
Environmental Programs, and Ms. Tuor for reporting on Kaiser-Hill's 
progress on the cleanup of Rocky Flats.
    I want to congratulate the Department and its contractors on the 
completion of the cleanup at the Rock Flats nuclear site in Colorado. 
The closure of Rocky Flats represents a noteworthy success in this 
nuclear complex cleanup campaign. Because of Senator Allard's 
commitment to putting this milestone ``in our rear view mirror,'' I 
appreciate his comments here to highlight this accomplishment in his 
home state.
    Of course, we're not nearly done with this overall cleanup 
campaign. This celebration of a major victory also must serve as a 
point of redoubled commitment to planning and implementing the best 
nuclear complex cleanup that we can deliver to the American people. It 
needs to be carefully planned--with changes in plans as appropriate--
reflecting new science or technology as those become available. It must 
also be implemented by the most capable team that we can access for the 
task. And, Mr. Rispoli, I commend your commitment to application of 
systematic and thorough project management practices throughout this 
campaign.
    I do want to raise several specific issues of particular concern to 
me and to my constituents. These all relate to the cleanup of the 
Hanford site, just across the Columbia River from Oregon in our 
neighboring State of Washington. My most immediate concern has to do 
with the safety of the Columbia River itself. As you know, 67 of the 
177 large waste storage tanks at Hanford have been identified as 
``leakers.'' According to the Oregon Department of Energy, some of that 
leaking waste has already reached groundwater. While I understand that 
the level of contamination detected thus far doesn't represent a threat 
to humans or other species, it is vital that we take whatever actions 
are necessary to make sure we don't end up with a safety issue in the 
Columbia River.
    My second concern relates to a potential project management issue. 
We all understand that emptying or stabilizing the wastes in those 177 
tanks in a benign state is a critical element in the cleanup of 
Hanford. In 2003, CH2MHill estimated that all of the wastes from one of 
the earliest tank fields, the C-tank field, could be removed by 
September 2006, for a total of $90 million. However, a recent Inspector 
General report states that the schedule won't be met, and the budget is 
likely to be $215 million. I would like a clear explanation, please, of 
why we are seeing this schedule delay along with this substantial cost 
increase. Is some of this due to unforeseeable events or technological 
issues? How much is attributed to contractor performance issues, and 
how much of this reflects inadequate project management? Most 
importantly, what is the real schedule for emptying these tanks, and 
what does it tell us about the plan for emptying all of the rest of the 
tanks?
    Finally, while we've achieved an important milestone in the closure 
of the Rocky Flats cleanup project, we still have a long way to go. We 
are still facing decades of cleanup efforts at Hanford alone, costing 
hundreds of millions of dollars. I am committed to doing my best to 
ensure that the federal government fulfills this national cleanup 
responsibility. We need to be able to assure the residents of the 
Pacific Northwest that we'll follow through. In this context, I ask you 
to be sure that the Department is recommending an appropriate and 
adequate plan and budget for continuing the Hanford cleanup. I also 
urge you to identify and implement mechanisms to strengthen this 
cleanup effort.
    Thank you, again, for appearing before the Committee today and for 
sharing your thoughts on carrying out this nuclear weapons complex 
cleanup campaign.

         STATEMENT OF HON. WAYNE ALLARD, U.S. SENATOR 
                         FROM COLORADO

    Senator Allard. Mr. Chairman, thank you. And, like many of 
your committee members, I have another committee. We'll have 
Dr. Bernanke, Federal Reserve chairman, in the other committee. 
So, as soon as I've made my testimony, I would like to be 
dismissed.
    Mr. Chairman, I'm pleased to testify before this committee 
and discuss one of the Department of Energy's greatest 
achievements, and that is the cleanup of Rocky Flats, the 
largest site in the 25-year history of Superfund that has been 
cleaned up.
    As you know, Rocky Flats is located just a few miles 
northwest of Denver, Colorado. For over 4 decades, this 
facility was the Department of Energy's dedicated site for 
manufacturing plutonium pits for the U.S. nuclear weapons 
stockpile. This highly classified production facility was run 
by over 8,000 Coloradans, who worked day and night for most of 
the cold war. These Coloradans were cold-war heroes who kept 
America's nuclear deterrence strong and helped protect our 
country.
    When plutonium-pit production ended in 1991, the cleanup of 
Rocky Flats was uncertain, at best. No one knew quite how to 
proceed. The cleanup of a site this contaminated had never been 
considered before. Tons of weapons-grade plutonium, plutonium 
compounds, uranium, and other radioactive metallic residues 
remained. Significant volumes of hazardous and radioactive 
waste generated during the decades of production would need to 
be removed. Building 771, in particular, was so contaminated 
that it was dubbed by the national media as ``the most 
dangerous building in America.''
    In 1995, the expected cleanup of Rocky Flats was estimated 
to cost approximately $35 billion and take over 70 years to 
complete. Few believed that they would be alive when the site 
was finally cleaned up. Yet, 5 years after that date, the 
cleanup agreement was signed. The contractor, Kaiser-Hill, has 
done something few of us have believed possible. On October 13 
of this year, Kaiser-Hill declared the cleanup of Rocky Flats 
complete.
    Mr. Chairman, as you see in these photos, you won't find 
any buildings or structures on Rocky Flats. You won't find any 
radioactive materials that exceeded natural background levels. 
Even the roads have been torn up and removed. The site has been 
returned to the way it was before plutonium production at Rocky 
Flats began. It is now a beautiful open space that we can all 
enjoy.
    Although much has been achieved over the last 5 years, it 
was not easy, and a number of challenges had to be overcome. 
Let me share a couple of lessons learned, which, from my 
perspective, were key to the successful cleanup of Rocky Flats.
    First, we discovered what we should have always known. We 
discovered that those who are appropriately incentivized can, 
and will, achieve incredibly difficult goals. Kaiser-Hill, the 
Rocky Flats cleanup prime contractor, agreed to a tough cleanup 
timetable for the cleanup of the site without fully knowing the 
extent of the contamination or the level of cleanup that would 
be required. It was a risk on the company's part. But the 
incentives for success made the risk worthwhile.
    I applaud the Department of Energy for its creativity in 
negotiating the Rocky Flats cleanup contract. And I commend 
Nancy Tuor, Bob Card, Jesse Roberson, and the many others who 
worked hard for Kaiser-Hill to meet and exceed the goals of the 
cleanup contract.
    Second, we learned the value of State and local support. We 
were fortunate in Rocky Flats to have a number of local, city 
and county governments who embraced accelerated cleanup and did 
everything they could to support it. The Rocky Flats coalition 
of local governments, in particular, played a pivotal role in 
ensuring the cleanup was done right the first time.
    The State of Colorado also deserves tremendous credit for 
agreeing to an accelerated cleanup plan that allowed the 
Department of Energy to move forward without a formal record of 
decision prior to cleanup activities. In an unusual 
partnership, the State of Colorado joined with the 
Environmental Protection Agency and the Department of Energy in 
an effort to work together to verify and monitor proposed 
cleanup remedies. This collaboration allowed these parties to 
solve problems and deal with issues before they got out of 
hand.
    Community organizations, like the Rocky Flat Citizens 
Advisory Board and the Rocky Mountain Peace and Justice Center, 
also played an important role. These organizations demanded 
that Department of Energy live up to its cleanup commitments, 
and refused to allow the Department to take shortcuts.
    The third lesson that I took away from the Rocky Flats 
cleanup is that the workers must buy into the cleanup. The 
workers can make or break the cleanup. If they work hard, as 
they did in Rocky Flats, then I believe even the most difficult 
cleanup becomes possible. However, if the workers are not 
appropriately incentivized, or if the workers see their jobs as 
lifetime employment, then the broad project can quickly fall 
behind schedule and experience enormous cost growth.
    The workers at Rocky Flats believed in the cleanup and did 
everything they could to meet the goals set for them. They 
learned new jobs. They wore extremely uncomfortable respiratory 
gear. They removed some of the most dangerous radioactive waste 
known to man. And they did this knowing that their job was 
going to come to an end.
    I cannot fully express the respect and admiration I have 
for the workers at Rocky Flats. They made the impossible 
possible, and deserve the lion's share of credit for completing 
the Rocky Flats cleanup a year and 3 months ahead of schedule. 
Their actions saved the American people over $500 million in 
fiscal year 2007, alone.
    And last, Mr. Chairman, I would be remiss if I did not 
express my gratitude and thanks to you, Ranking Member 
Bingaman, and the other members of this committee for the 
support you've provided for the accelerated cleanup of Rocky 
Flats. Your leadership, Mr. Chairman, in particular, was key to 
ensuring that we had the necessary funding and particular 
support to get this project done ahead of schedule and under 
cost.
    As the Department of Energy turns its focus on other 
cleanup sites, it is my hope that the lessons learned at Rocky 
Flats will not be forgotten. The accelerated cleanups are 
possible, and the savings to the American taxpayer can be very 
significant. We need to do everything we can to encourage 
accelerated cleanups, and you can count on my continued support 
in that effort.
    Mr. Chairman, I encourage you and other members of the 
committee to tour Rocky Flats when you're in Colorado next. I 
agree that you will be impressed by how we've turned a highly 
contaminated nuclear-weapons production facility into a natural 
wildlife refuge.
    Mr. Chairman, this concludes my testimony, and thank you 
for the opportunity to share my thoughts with the committee.
    The Chairman. Thank you very much.
    Senator, I might also add--I know you intended this--the 
Appropriations Subcommittee, of which you now serve, that I 
have been privileged to chair, is the one that appropriates the 
money for this. And this is the only shining light we have as 
we annually struggle with how in the world Americans are going 
to be able to pay for the cleanup as it's occurring. And I want 
to express, in the record, not only my appreciation, but my 
genuine admiration for the contractor, the Department, the 
State and local entities, and the regulatory groups, because I 
believe this is not only unique in its conclusion, but it's 
unique in its inception. It started in a way that the other 
cleanup around the country did not, and probably would not, 
have started, because this was not started with rancor among 
the participants, but, rather, with the willingness to join 
together and get it done. And, second, I think it was probably 
clear from the beginning that the employees would not be there 
forever, this would not be a constant, continual forever-source 
of payroll checks for the area. Before we're finished, I'm 
going to ask about that. But, you know, what we hear most, or 
as much as anything, about the other projects, is, ``If you cut 
it, so many people lose their jobs,'' or, ``If you get less 
money, so many people will be unemployed.'' It's very 
difficult, we know. But, frankly, these were not intended to be 
hundred-year laboratories. They were intended to be something 
else.
    So, thanks for your interest, and for what you've done. And 
to those who I have just mentioned, my--did I mention the 
Department of Energy? If I didn't, I should, because this is 
one of their real flags, that they decided that they could get 
a start here and try to do it right, from the beginning. And 
they did.
    So, thank you, Senator.
    Senator Allard. Well, thank you, Mr. Chairman, for your 
comments. It was a pleasure to deal with people who kept their 
commitments in this project.
    The Chairman. Now, we're going to move quickly, because of 
time, as the Senator indicated, as I indicated. We have seven 
stacked votes starting soon. Not enough time to hear everybody. 
But we're going to move to you and ask if you'd please handle 
your statement as expeditious as you can so I can get to 
Secretary Rispoli, and then ask a few questions.
    Please proceed.
    Ms. Tuor. Thank you. I will, sir.

    STATEMENT OF NANCY TUOR, PRESIDENT AND CEO, KAISER-HILL 
                  COMPANY, LLC, BROOMFIELD, CO

    Ms. Tuor. Chairman Domenici, Senator Bingaman, committee 
members, I am pleased to be here today. And I am even more 
pleased to report to you the safe completion of the accelerated 
closure of Rocky Flats. On behalf of the entire project team, 
please accept our sincere appreciation for your leadership over 
the years.
    It is a pleasure to be here with Senator Allard, who has 
dedicated a significant portion of his Senate career to 
ensuring the successful completion of this project.
    I'm also happy to join Assistant Secretary Jim Rispoli 
today. He represents so many people in the Environmental 
Management Program who have provided leadership and support for 
the Rocky Flats project.
    I would also like to recognize the work Senator Salazar has 
done in Congress and, previously, as our attorney general in 
Colorado.
    The closure of Rocky Flats is a monumental accomplishment 
that could not have been possible without the support of this 
committee and without the commitment, efforts and dedication of 
the entire Colorado congressional delegation, the U.S. 
Department of Energy from the Rocky Flats project office, all 
the way to DOE headquarters, and, ultimately, Secretary of 
Energy Sam Bodman. This vision, support and commitment spanned 
three administrations and involved the collaborative efforts of 
many DOE sites across the country.
    On October 13, 2005, this vision became a reality. At 9:15 
that day, Kaiser-Hill declared to DOE the physical completion 
of the Rocky Flats closure project, culminating a 10-year, $7 
billion project, making Rocky Flats the largest nuclear 
decommissioning project to be completed anywhere in the world. 
Moreover, it was done through a consultative process with the 
community and our regulators, using risk-based methods to 
ensure that real threats to public health and the environment 
received the highest priority.
    When Kaiser-Hill took on the job of the Rocky Flats cleanup 
in 1995, official reports estimated that the cleanup would take 
7 decades and cost $37 billion. When Kaiser-Kill and DOE signed 
the follow-on closure contract in January 2000, many thought 
accelerated cleanup was just a pipe dream. The Government's own 
General Accounting Office questioned the viability of the 
project; not once, but twice issuing reports calling closure, 
even by 2006, unlikely. Yet today I report to you that the 
Rocky Flats closure was completed more than a year ahead of the 
aggressive 2006 schedule, ultimately delivering nearly $30 
billion in taxpayer savings and taking a $600 million-a-year 
liability off the DOE books forever.
    This was a monumental effort that included the remediation 
of the toxic legacy from 4 decades of nuclear weapons 
production. It has literally turned from an environmental 
liability to an asset for the community.
    Highlights of the accomplishment include the removal of 21 
tons of weapons-usable plutonium and highly enriched uranium, 
the disposition of 106 metric tons of high-content plutonium 
residues, the remediation and/or closure of more than 360 areas 
of potential environmental contamination, the demolition of 
more than 3.6 million square feet of buildings, including more 
than 1 million square feet of highly contaminated nuclear 
production facilities, and the off-site shipment and disposal 
of more than 600,000 cubic meters of radioactive waste.
    Many, many factors contributed to the success of this 
project, from the day-to-day involvement and support of DOE at 
all levels to the efforts and innovation of our workforce.
    A few of the most important success factors included the 
establishment of a clear vision for a closure and a sense of 
urgency for the mission; strong bipartisan support; stable 
project funding; dramatic improvements in safety; the unique 
nature of the incentive-based closure contract; effective 
technology funding and deployment; innovations in regulatory 
processes embedded in the unique Rocky Flats cleanup agreement, 
coupled with strong leadership from the Colorado State 
government; and finally, a dedicated and talented workforce 
that got in there each and every day and came up with the best 
way to safely get the job done.
    Thank you for the opportunity to be here today and to join 
Senator Allard, Assistant Secretary Rispoli, and the entire 
committee in celebrating this shared success.
    I look forward to answering your questions about the 
accelerated closure of Rocky Flats.
    The Chairman. Thank you very much.
    Mr. Secretary, we're going to wait just a moment for your 
testimony.
    Senator Salazar, you were mentioned by our witness as part 
of not only the Senate team that worked on this, but the 
Colorado team, when you were in your job as attorney general. 
Would you like to just make a few observations? I would tell 
you, at 10:45, we must vote on seven consecutive votes, but 
we're going to try to get the next witness in, and some 
questions.
    With that, I'd yield to you.

          STATEMENT OF HON. KEN SALAZAR, U.S. SENATOR 
                         FROM COLORADO

    Senator Salazar. Thank you very much, Senator Domenici. Let 
me just, first, say that I'm proud of the work of the Senate 
and this committee in making sure that the funds were, in fact, 
available for the completion of the cleanup at Rocky Flats, 
proud of the work of the Department of Energy and Kaiser-Hill, 
in this very successful effort.
    I have a prepared statement, Mr. Chairman, that I will 
submit for the record. But I would like to say a couple of 
things about this project, because I think it's a very 
important template.
    First, this was a project which transcended 
administrations, Republicans and Democrats, but really showed 
us a way in which, when we can work together, things can, in 
fact, happen. You know, I remember well, in 1995, when the 
process was just beginning, that we were in the middle of the 
Clinton administration. And the project has now been completed 
during the Bush administration. And I think what it has shown 
is, when you have the kind of effort, with the local 
governments and communities involved, and the employees of the 
Department of Energy, along with a company that had a vision 
and a willingness to take a risk to get the job done on time, 
that we, in fact, accomplished something which was miraculous. 
And, at the end of the day, what this means for Colorado, and 
for America, is, one, we're a more secure Nation, because this 
plutonium factory has been dismantled appropriately, and, 
second, we have been able to do it in a manner that has saved 
the taxpayer billions and billions of dollars.
    So, I think it is a kind of template that we can continue 
to look at as we look at other sites around the country which, 
seemingly, appear to be intractable, in terms of their cost and 
how we're going to ultimately deal with their cleanup.
    And so, I appreciate this being a model. I appreciate the 
work of my colleagues, including Senator Allard and others who 
have worked on this project over the years, Senator Campbell, 
and, on the House side, Representative Skaggs, who did a lot of 
work on this.
    And, Senator Domenici, thank you, again, for your personal 
interest in this very important project for our Nation.
    [The prepared statement of Senator Salazar follows:]

   Prepared Statement of Hon. Ken Salazar, U.S. Senator From Colorado

    Good morning. Thank you, Mr. Chairman. I am delighted to welcome my 
friend and colleague, Senator Allard, to our committee meeting today, 
as well as Assistant Secretary Rispoli, whom I met in this same room 
just a few months ago, and Ms. Tuor, whom I know from our efforts 
together on the Rocky Flats cleanup. Thank you all for being here.
    As Colorado's Attorney General, I spent a lot of time and energy 
working on the many issues presented by Rocky Flats. I am happy today 
to point to the clean up of Rocky Flats as a shining example of what 
the government, private industry and American workers can do when we 
work together.
    We will soon celebrate the successful completion of the clean up of 
one of the most contaminated sites on earth. This cleanup will protect 
human health and our environment, and--we don't get to say this very 
often--it was completed under budget and more than a year ahead of 
schedule.
    Things at Rocky Flats didn't always look so rosy, so it's important 
to look back and understand how we arrived at this day. There were 
years of tension between the federal government and the State of 
Colorado over the operations and the clean up at Rocky Flats. Finally, 
the Department of Energy, the U.S. Environmental Protection Agency and 
the State came together to establish standards and processes to assure 
that this former nuclear weapons facility can one day become a National 
Wildlife Refuge. As Colorado's Attorney General, I worked with 
Colorado's Governor, Bill Owens, and the Colorado legislature to enact 
a state law to ensure the long term safety of former Superfund sites 
like Rocky Flats by permanently restricting future development on the 
site. I am proud to see the Department of Energy working with the State 
of Colorado to use that same state law to create permanent protections 
for Rocky Flats.
    The officials of the Department of Energy and the representatives 
of Kaiser-Hill negotiated a contract with appropriate targets, 
incentives, standards and flexibility, and Kaiser-Hill, under your 
guidance, Ms. Tuor, skillfully managed a very complex project. 
Congress, with the strong support of Colorado's Congressional 
delegation and the leadership of this Committee, gave the necessary 
authorization for this new approach and, when necessary, gave the 
parties a good push in the right direction. As I said, the clean up at 
Rocky Flats is a model of what we can accomplish when government and 
private industry work hand in hand.
    Finally, let me offer my thanks and my admiration to the hard-
working men and women whose ingenuity and dedication made this happen. 
Many of the same men and women who worked at Rocky Flats to produce the 
nuclear weapons that helped end the Cold War later worked just as hard 
to clean up this Cold War site so that it can become a National 
Wildlife Refuge, a place for recreation and spiritual renewal. Many of 
these patriotic Cold War veterans have died and many more are suffering 
today from illnesses caused by exposure to radiation at Rocky Flats. As 
we celebrate our successes, let us remember those who paid dearly to 
bring us to this day. And let us also remember that it was their 
innovation and their committed efforts that played a very large role in 
completing this project under budget and ahead of schedule. The Rocky 
Flats workers are the real heroes of this story.
    As we look ahead to more successful cleanups at other former 
nuclear sites, we should remember that, at all these sites, it will be 
American working men and women who bear the risks and who get the job 
done. Let's make sure we treat them with fairness and with respect.
    Again, thank you, Mr. Chairman and Senator Bingaman. And thank you, 
Assistant Secretary Rispoli and Ms. Tuor for your presence today.

    The Chairman. Thank you, Senator.
    Ms. Tuor, could you, for the record, tell us how the 
environmental regulatory aspects of this were ``innovative''? 
You used that word. I'd like to have you tell us--not now, 
because we don't have enough time--how they were agreed upon. 
I'm not going to say ``changed,'' because some people think 
that means we cut corners, but much of the delay in other 
projects is the inability to come to grips with regulations and 
regulatory problems, and they become intractable, to borrow 
your word, and then litigation ensues and everything ends up 
taking forever. So, would you do that for us? Whatever help you 
need. And would you help with that, Mr. Secretary, so we could 
have that? I assume we agreed on some regulatory approaches 
that were unique and different here, did we not?
    Ms. Tuor. Yes, we did, sir. We used efforts that were 
already in the Superfund law--the accelerated action methods 
that are in the law, but not often used. So, we would be glad 
to give you a white paper on how we believe that came together 
and what it accomplished.
    The Chairman. Mr. Secretary, before you testify, would it 
be fair to say that the Department is aware of those kinds of 
initiatives and their positive effect on getting this done?
    Mr. Rispoli. Yes, Mr. Chairman, it is fair to say that. In 
fact, I think, because of the tremendous working arrangement in 
the State of Colorado, there were--there was much more focus on 
accomplishment rather than specific milestones. And that gave 
the contractor much more flexibility in keeping the momentum up 
and working on things that had to be worked on.
    The Chairman. Let's stay on this line of questioning, if we 
could.
    Mr. Rispoli. Yes, sir.
    The Chairman. Now, when you ended up here--either or both 
of you--we had this site--when we ended up, we have this site, 
as you've depicted it. I wish it would get a lot more notoriety 
in the country, because all we hear about is that, ``We can't 
clean up radiation; therefore, we ought to give up.'' What is 
that site now, as far as human use? Can I go out there and walk 
on it?
    Ms. Tuor. Not today, sir. It is currently locked up----
    The Chairman. Why?
    Ms. Tuor [continuing]. Finishing the paperwork----
    The Chairman. Okay.
    Ms. Tuor [continuing]. That will de-list it from the 
Superfund site. Then, Mr. Chairman, once that de-listing has 
occurred, it will formally be turned over to the U.S. Fish and 
Wildlife Service, under the Department of the Interior, and 
they will then manage it as a national wildlife refuge. They 
have not yet announced when it will be open for public access.
    The Chairman. But maybe my question, following on that, 
would be: Is it currently, in terms of the adequacy of the 
formerly contaminated site--does it qualify for wilderness, if 
all these processes are finished?
    Ms. Tuor. Yes, Mr. Chairman, it does. It has been cleaned 
up to a public health standard that will allow public access. 
And, indeed, the most restrictive use was to look at the 
wildlife refuge workers, since they would be spending 40 hours 
a week on the site. And it is adequate for their protection.
    The Chairman. That's truly a remarkable achievement.
    One last question. I was being very honest a while ago when 
I said that in the Appropriations Committee--incidentally, 
that's where the money comes from, and I happen to be on that--
every year, we have to appropriate all the money for all the 
cleanup projects. It's beginning to be one of the largest 
components of this appropriations bill. It comes out of the 
Department of Defense, incidentally, Senator. It's transferred 
from them to this subcommittee, that is not Defense, to be 
spent. So, to the extent that we spend it, it diminishes the 
Defense budget for other things.
    But what we always hear is, ``You've got to fund it fully, 
because we've got to keep these jobs that are there.'' Now, 
we've been at that, in some instances--and I don't--I mean, 
it's clear that--at Savannah River, in South Carolina. But 
what's the difference between yours and theirs? How do the 
people accommodate to the realistic idea that their jobs are 
going to end, pretty--you know, probably while they're still 
working, and--still working people and still wanting jobs? How 
is that done?
    Ms. Tuor. I think, Mr. Chairman, there were two points I 
would make. First, it was very difficult, and a real leadership 
challenge, to convince the people, who had gone to work at 
Rocky Flats thinking they would retire there, that there was a 
benefit to them working themselves out of their jobs. The two 
key assets were incentives that we did share with the employees 
out of our earnings, and rekindling the pride they had in the 
role they had played in, they believed, winning the cold war, 
and having the opportunity to bring that full circle and turn a 
liability in the community back to an asset to the community. 
But, second, I would tell you, we did benefit from the fact 
that Rocky Flats is part of a larger regional economy, which, 
when we proposed the accelerated cleanup, was quite robust.
    In short, I think it's fair to say that the community 
viewed Rocky Flats as a greater asset gone than it did as a job 
provider. And that was a key benefit to us in our political 
efforts.
    The Chairman. Mr. Secretary, we've been speaking and using 
the word here regularly, ``incentives.'' What does that mean, 
in terms of Rocky Flats? And how is it applied in other 
cleanups, if it is?
    Mr. Rispoli. Mr. Chairman, the way that incentives are 
used, in this contract and in others, is that incentives are 
basically a profit pool, if you will, a set-aside amount of 
money in the contract that's available for superior performance 
on schedule and cost containment. And the Department has 
generally gone to that type of a format in all of our 
contracts. It worked particularly well at Rocky Flats, because 
there was a finite end date in the near term, as a few of our 
other sites also have. The end dates were well known. Again, as 
has been stated, the cooperative environment in the State of 
Colorado was very, very supportive. And we had a good 
commitment to funding. And so, with all of that said, it 
enabled the contractor to keep up with the momentum. If they 
ran into a problem in one area, they could move the workforce 
to another to keep the forward motion going and keep on 
schedule. And all of that just worked amazingly well at Rocky 
Flats.
    We have learned from this. We have applied the same types 
of incentives for schedule and cost control to other contracts. 
Obviously, when you have those that have a more near-term 
closure and a well-known end date, it is more straightforward, 
you might say, to apply. It's a little more difficult at very 
large sites, where you have to pick out segments of the work 
and apply those incentives to each segment individually.
    The Chairman. Let me follow up there, and then I'll ask the 
Senator if he has some questions.
    Would it be correct to assume that, in your case, the time 
you started entering into the agreements with the contractor, 
Kaiser-Hill, that those were brand new? You didn't have any 
contracts that extended over a long period of time that had 
covenants and agreements between local units and the 
government? They were all done when this project started? Do 
you understand what I'm getting at?
    Mr. Rispoli. Yes, Mr. Chairman, I do--I believe I do. This 
contract was clearly the flagship in being innovative in this 
approach. As was mentioned by both Senator Allard and Nancy 
Tuor, it took a great deal of commitment and innovative 
approach on both the part of the company and on the part of DOE 
to set this contract in place. And I do believe we've learned 
greatly from the accomplishments, and, therefore, the format, 
of the contract and the way that it was incentivized.
    The Chairman. Do you have any questions at this point, 
Senator?
    Senator Salazar. Keep going. I----
    The Chairman. I was going to ask Mr. Rispoli if he'd take 3 
or 4 minutes to give us his statement.
    Your statement will be made a part of the record. But let's 
ask you, Mr. Secretary, to abbreviate your statement. Then 
we'll ask some more questions.
    Mr. Rispoli. Yes, sir. Thank you, Mr. Chairman.

    STATEMENT OF JAMES A. RISPOLI, ASSISTANT SECRETARY FOR 
         ENVIRONMENTAL MANAGEMENT, DEPARTMENT OF ENERGY

    Mr. Rispoli. Chairman Domenici and members of the 
committee, I'm pleased to be here today to discuss the 
Department of Energy's Environmental Management program.
    I would like to particularly thank you, Mr. Chairman, and 
this committee, for your strong support of the EM program. In 
particular, I'd like to recognize not only your efforts, but 
also those of Senator Allard, with respect to the cleanup of 
the Rocky Flats site. I would also like to thank Senator 
Salazar for your work on Rocky Flats at the State level and 
since coming to Congress. And certainly I would like to 
acknowledge the remarkable performance by Nancy Tuor and the 
entire Kaiser-Hill organization.
    Since I first appeared before you in July, during my 
confirmation hearing, and since being sworn in on August 10, 
I've been familiarizing myself with the program, the issues, 
and the people. I have visited ten of our sites since then. 
It's clear to me we have a driven workforce that's making 
immense headway in some of the Nation's most crucial 
environmental actions.
    We've made significant progress, as you have obviously 
recognized, in the last 4 years, shifting focus from risk 
management to risk reduction and cleanup and completion. Most 
notably, not only do we have Rocky Flats as an example, but 
we're on schedule to clean up Fernald and Mound and a number of 
other sites during fiscal year 2006.
    My written statement has specific accomplishments, and 
they're in the record, but I'd like to say that all those who 
contributed to those successes should be proud to have played a 
part, and we thank this committee, in particular, for your 
support.
    As you know, this is not an easy mission. The most visible 
example is the waste treatment plant at Hanford. It's arguably 
the largest, most complex construction project in the Nation, 
equivalent to building two nuclear reactors. As you know, that 
project is encountering design and construction setbacks. I 
would like you to know that Secretary Bodman and the Department 
have remained absolutely committed to fix the problems 
correctly. We are working with the Corps of Engineers and our 
contractors, taking several major actions to ensure that we 
fully understand what is required to complete construction and 
begin operations.
    I'd like to briefly mention safety, because I know that's 
of interest to you, and to this committee. It affects everyone 
involved--the employees, the Federal employees, the contractor 
employees, the site, and the community. I have told our field 
managers, everywhere I go, that safety must be our first 
priority. No schedule, no milestone, is worth any injury to the 
workforce.
    It's vital that we acquire the best services and attract 
the best contractors, including small business. Obviously, we 
must sharpen our reliability and be unambiguous meeting 
deadlines, and be responsive to bidders. And my goal is to have 
a high-performing organization in which at least 90 percent of 
our projects will perform on, or better than, cost and schedule 
targets. So, with that in mind, I'm taking steps to upgrade 
Environment Management's project-management systems to be best 
in class in project execution.
    I firmly believe that an organization is never better than 
its people. Our employees, Federal and contractor, hold the key 
to success. I'm committed to partnering with all the affected 
communities, States, tribal nations, contractors to achieve 
success, because I truly believe that we succeed or we fail 
together.
    The continued support of this committee and the Congress is 
very much appreciated, and it's crucial to maintain the 
momentum that we have achieved.
    Thank you for your confidence in confirming me, confirming 
my nomination as Assistant Secretary this past summer. I'll be 
happy to answer any questions you may have.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Rispoli follows:]

    Prepared Statement of James A. Rispoli, Assistant Secretary for 
             Environmental Management, Department of Energy

    Mr. Chairman and Members of the Committee, I am pleased to be here 
today to answer your questions on the status of the Department of 
Energy's Environmental Management (EM) program I would like to thank 
Chairman Domenici and this committee for your support for the EM 
program. In particular, I would like to recognize the efforts of 
Chairman Domenici and Senator Allard with respect to the impending 
cleanup of the Rocky Flats site. I would also like to thank Senator 
Salazar for his work on Rocky Flats at the state level and since coming 
to Congress. As you are aware, the Department is currently verifying 
the physical completion of Rocky Flats cleanup.
    Since I first appeared before you in July, I have been 
familiarizing myself with the program, the issues and the people that 
are responsible for cleaning up the environmental legacy of the Cold 
War. From my visits to Paducah, the Idaho National Laboratory, Hanford, 
West Valley, Savannah River Site, Oak Ridge Reservation, Ohio Field 
Office and the Consolidated Business Center and interactions with our 
personnel throughout the complex, I can say we have a driven workforce 
that is making immense headway in some of the nation's most crucial 
environmental actions. As I have become more informed on the sheer 
immensity of the challenges that face the program, I have a greater 
understanding of the progress we have made and the significant issues 
that lie before us.
    The program has made significant progress in the last four years in 
shifting focus from risk management to risk reduction and cleanup 
completion We are on schedule to complete cleanup at Rocky Flats, 
Fernald, and Mound. We have moved and secured nuclear material and 
spent fuel to reduce risk and prepare them for ultimate disposition. We 
have disposed of huge amounts of radioactive waste and remediated many 
of the contaminated areas at our sites. These accomplishments add up to 
an impressive amount of cleanup and risk reduction Some highlights 
include:

  <bullet> Rocky Flats has concluded the physical cleanup of the site 
        and the Department is in the process of verifying completion.
  <bullet> All buildings at Mound planned for demolition have been 
        taken down.
  <bullet> Fernald completed the largest waste shipping campaign in DOE 
        history as the 154th train of waste pit material was shipped 
        off site for disposal. The remediation of the waste pits 
        eliminated a direct source of contamination to the Great Miami 
        Aquifer.
  <bullet> The Waste Isolation Pilot Plant continues to play a major 
        role in completing cleanup throughout the EM complex--in the 
        spring the site received the final transuranic waste shipment 
        from Rocky Flats.
  <bullet> Richland completed removal of plutonium ``hold up'' from the 
        Plutonium Finishing Plant more than a year ahead of schedule, 
        significantly reducing a security, worker, and community risk.
  <bullet> The Savannah River Site completed construction of the M Area 
        Dynamic Underground Stripping System. After 2 months of 
        operation, 14,200 pounds of volatile organic compounds have 
        been removed from the soil and ground water.
  <bullet> The Idaho National Laboratory emptied a Category 1 Material 
        Access Area four years ahead of plan, reducing a security 
        threat and mortgage costs.

    All those who contributed to these successes should be proud to 
have played a part and we thank this committee in particular for your 
support.
    As you are fully aware, the mission is not an easy one---the most 
visible example being the Waste Treatment Plant at Hanford. The Waste 
Treatment Plant project is arguably the largest, most complex 
construction project in the nation. As you know, the Waste Treatment 
Plant is encountering design and construction setbacks. The Department 
has remained committed to fix the problems correctly. Because of the 
size and complexity of the plant, fully understanding all the facts 
will take a few more months. The Department, along with the U.S. Army 
Corps of Engineers and our contractor, is currently undertaking several 
major activities to ensure we fully understand what is required to 
complete construction and begin operations. While some may characterize 
our effort to validate the cost and timeline for the project as overly 
cautious, it is responsible management---responsible management that is 
key to the successful completion of our mission.
    Just as importantly, for us to be successful, we must have:

  <bullet> credible project baselines,
  <bullet> effective identification and management of risks,
  <bullet> selection of the most appropriate contract type and fee 
        earning method corresponding to the scope of work and 
        uncertainties,
  <bullet> realistic schedules,
  <bullet> early and frequent communication with regulators, 
        communities, stakeholders, Congress, and contractors,
  <bullet> improvements and training on the source selection process,
  <bullet> an integrated human capital management program stressing an 
        experienced acquisition and project management staff, and 
        strong technical staff, especially for nuclear related issues, 
        and
  <bullet> constant real-time feedback of lessons learned.

    Paramount to our success is safety--it is our top priority. Safety 
affects all involved----federal employees, contractors, the site and 
the community. We will continue to maintain and demand the highest 
safety performance in all that we do. Every worker deserves to go home 
as healthy as she or he was when they came to the job in the morning. I 
have told all our field managers that no schedule, no milestone, is 
worth any injury to our work force.
    Such a multi-faceted approach is central to superior performance 
and improved accountability.
    Clearly, opportunities exist to improve our acquisition practices. 
We are an ``Acquisition'' agency with a capital A--in terms of both 
procurement and project execution. It is vital that EM acquire the best 
services and attract the best the contractor community, including small 
business, has to offer. In order to do that we must be reliable, clear, 
meet deadlines and be responsive to our prospective bidders. We must 
ensure that we have highly skilled employees dedicated to this process. 
For us, we are acquiring an end state----a site that has completed 
cleanup or attained closure. We will sharpen our skills and refocus our 
enterprise to reflect our acquisition responsibilities. The 
organizational structure must support the emphasis of technical 
excellence, integration of project management and contract acquisition/
administration in order to meet this goal. It must also incorporate 
effective incentives for the federal and contractor workforce for 
superior performance, and accountability for field office and 
headquarters managers, project managers, and contracting officers for 
meeting cost, schedule and performance expectations.
    It is my goal to lead EM as a results-driven high performance 
organization. We will instill a strict project management mindset that 
will be ingrained in all projects. Our performance on many key projects 
has not been acceptable. My goal is that at least 90 percent of our 
projectized portfolio will perform on or better than our cost and 
schedule targets. We have taken major strides in integrating safety; 
now we must do the same with project management. Project management 
must not be viewed as a burden or an extra step that we have to take. 
It is the very backbone of our project planning and execution. This 
includes reporting and oversight as well. The management tools used to 
manage cost and schedules must be used to manage and provide oversight 
integrally. Our success will depend on our ability to build in this 
rigor. I am taking immediate steps to upgrade EM's project management 
systems and initiate remedies to be a best-in-class project execution 
organization. We will target the shortcomings in our project management 
by using both DOE and industry standard project management and business 
management processes. I will personally conduct Quarterly Reviews of 
all EM projects and have directed that my senior staff carry out 
monthly reviews. This includes fully implementing our management 
systems through the use of earned value management, following through 
on corrective actions, and better applying risk management principals--
that is identifying project uncertainties, developing mitigation 
measures and contingency and holding action officers accountable for 
their resolution. I believe that this is the key to our success with 
strong and effective project management.
    Complementing these refinements, we must ensure that our projects 
are managed by highly skilled, competent and dedicated leaders and 
staff workers, both Federal and contractor. Our managers and staff must 
have the appropriate skills to perform their functions. We are 
currently doing a skills gap analysis to determine where we may need to 
provide additional help to our existing staffs training or adding to 
staff We have instigated a certification program for our project 
managers. Our goal is, by May 2006, all EM Federal project managers 
will be certified. We want to assure ourselves that we have the right 
skills mix to get the job done. We are assuring that our employees are 
provided career development, rewards, and support in the appropriate 
way. I firmly believe that an organization is never better than its 
employees. Our employees, federal and contractor, hold the key to our 
success.
    Just as importantly, these managers and their staff, skilled in the 
competencies to do their job, will have the responsibility and the 
authority to meet the program's objectives. We will streamline the 
relationship between the field and headquarters to enable the program 
to be more effective in its oversight role. I believe that if you have 
the right people in the right job with the right skills, they should be 
empowered to execute their responsibilities and be accountable for 
their decisions and outcomes.
    Our desire is that at Headquarters and each site, our key 
acquisition and technical personnel, including contracting officers, 
have knowledge of technical issues, project management, business 
management at an equivalent level of expertise as their contractor 
counterparts to promote meaningful, and cogent dialogue on substantive 
issues. Our job as a federal agency is management and oversight, to be 
responsible envoys and stewards of the public's trust and resources. 
Therefore, we must have a highly qualified and technically proficient 
management team. Ultimately, my aim is to have a high performing 
organization, sustained by a career oriented workforce, driven to 
produce results that are important now and into the future.
    I believe that by taking these steps we will be in a position to 
address the challenges that lie before us. I am committed to work with 
all interested parties to resolve issues and will work with this 
committee and the Congress to address any of your concerns or 
interests. DOE, our regulators, the communities and our contractors are 
partners in this effort. This partnership goes far beyond the limits of 
a contract or an agreement. Our success relies on this partnership. We 
are in this together--we all succeed or we all fail together. Your 
continued support is crucial to maintain the momentum that has so 
painstakingly been achieved. Thank you for your confidence in 
confirming my nomination as Assistant Secretary this past summer.
    I look forward to continuing dialog with you and your staff.

    The Chairman. Thank you, Mr. Secretary.
    Again, I was telling you about the time. I'm very concerned 
that we're not going to have time to do enough oversight. We 
don't need oversight on Rocky Flats. We need to know about 
these other sites. We're not going to get that done today. I'm 
hopeful we can find time during the year, during the Congress, 
to do one on some of the troubled sites.
    So, let me ask you about Hanford.
    Mr. Rispoli. Yes, sir.
    The Chairman. After 5 years of work, as I understand it, 
this particular waste treatment facility, the Hanford Waste 
Treatment Plant, you've discovered that the plant was being 
built on an inadequate seismic requirement base. As far back as 
2002, the Defense Nuclear Facilities Safety Board cautioned 
about the plant design and said that it might be inadequate on 
seismic requirements. Were you aware of that?
    Mr. Rispoli. Yes, Mr. Chairman, I was.
    The Chairman. Construction on the plant continued, using 
these standards. Recently, the Pacific Northwest National 
Laboratory concluded that the standards were inadequate by 
today's seismic requirements. As a result, the plant design may 
have to be reworked on the partially built waste treatment 
facility, and that will obviously add a significant additional 
cost.
    How do things like this happen? And why did it take so long 
to find out about this inadequacy? And how are we going to 
improve the oversight so we don't have this?
    Mr. Rispoli. Mr. Chairman, let me begin by stating that, in 
my very first meeting with Secretary Bodman, in his third week 
on the job, this plant was the exclusive subject of discussion. 
And I'd like to begin my answer by telling you that the 
Secretary's commitment to this plant has been unwavering and 
strong since that day. It, obviously, is a very complex 
project. As I mentioned, it's over $5 billion. Clearly, we know 
there are going to be cost increases to that figure. What we 
are doing now, with the Secretary's full support, is we are 
going over all the seismic issues. We are reevaluating the 
seismic conditions in that part of the country to ensure that 
we have it right.
    I should tell you that we do not expect any future rework 
related to the seismic conditions. In addition, we have the 
Corps of Engineers reviewing all of the seismic design that the 
contractor has done to be absolutely certain that when we 
recommence work on those portions that are affected by the 
seismic issues, that we will have no difficulty going forward.
    We have also initiated other specific management 
improvements on this project, in the area of project 
management, with the intention that we apply a more rigorous 
project-management discipline going forward to avoid the types 
of problems that you have mentioned.
    The Chairman. I'm going to yield now to Senator Salazar.
    Senator Salazar.
    Senator Salazar. Yes. Thank you very much, Mr. Chairman.
    I want to ask a question on Rocky Flats with respect to the 
environmental covenants law that was passed in Colorado on a 
bipartisan basis, which I helped author and the Governor 
signed, I think, last year.
    The institutional controls that are contemplated by that 
law will allow us to regulate the activity on what is probably 
400 to 500 acres of the area that may not have been cleaned up 
to the highest theoretical standards. That law has now been 
adopted as part of the uniform covenant laws for the States 
across the country. And I was wondering, Secretary Rispoli, 
whether or not we ought to take a look at that kind of an 
institutional control law as a model for a Federal law that 
might help us, in terms of the cleanup efforts that we have at 
some of the other, I think, 113 sites that we must still work 
on.
    Mr. Rispoli. We understand the purpose of the new--of the 
institutional control law in the State of Colorado. At the 
present time, the Department is actually in dialog with the 
State to develop the covenants by which to go forward, and we 
expect that to be completed by 2006. I do believe that this may 
be the first instance where we are doing that, and we certainly 
will look at the applicability in other examples, in other 
States.
    Senator Salazar. I would ask you just to keep me informed 
as you move forward with the progress on that issue.
    Let me ask a second question. I know we're running short on 
time here.
    The transition of this area, this 6,000 acres, from a Rocky 
Flats DOE facility over to the wildlife refuge under the 
Department of the Interior, is something that we all expect to 
happen. It's something that the legislation says will happen. 
Can you let me--can you give us a quick summary of where we are 
on that transition now and the timing for getting the 
memorandum of understanding signed between the Department of 
the Interior and the Department of Energy so the baton can be 
taken from DOE over to DOI?
    Mr. Rispoli. Senator Salazar, we have been in dialog with 
the Department of the Interior. In fact, we have obviously 
begun, and are working on, that memorandum of understanding as 
to how to go forward. We expect to complete that within the 
near future, and have the framework established for the path 
forward to transfer the site to the Department of the Interior.
    Senator Salazar. I would also ask you, Mr. Secretary, to 
keep both Senator Allard and myself informed about the progress 
being made with respect to the transition and the negotiations 
on the MOU.
    The Chairman. Senator, let me just say, it's preferable 
that you ask that the committee be advised, rather than the 
Senators.
    Senator Salazar. Absolutely. If you----
    The Chairman. You get advised that way, but he should 
advise the committee on both those issues that you asked about.
    Senator Salazar. Absolutely.
    The Chairman. If that's all right with you, that's what it 
should be.
    Senator Salazar. Absolutely. And so, with that amendment, 
please, Mr. Secretary, advise us as to the progress on both of 
those two issues.
    I guess this is a question. Let me ask it to DOE. At the 
end of the day, the incentives here were monetary. That's what 
sped this thing up to create a model for what we may be able to 
do in other places in the country. Can you give us a 
quantification of what those bonuses have been to Kaiser-Hill?
    Mr. Rispoli. Senator Salazar, I think that, obviously, the 
monetary aspects were a significant part of the equation. I 
would offer that, in my having visited the site and talked with 
contractor personnel, both the site workers, as well as 
management, I really do believe that, for them, it became even 
more than just the monetary aspects. I think the keys to 
success were not only the financial incentives to the company, 
but, as Nancy Tuor has mentioned, the individual employees were 
also----
    Senator Salazar. I understand that very much, Mr. 
Secretary, and I applaud the workers, and I applaud the 
leadership of Kaiser-Hill, but get back to just the money 
question. The incentive there was a financial incentive for a 
private-sector company to come and do a good job and, 
ultimately, it ended up saving the taxpayers billions and 
billions of dollars and lots of time. What was that quantum at 
Rocky Flats?
    Mr. Rispoli. Nancy, that was, I believe--can you answer 
that?
    Ms. Tuor. I can, sir.
    Senator Salazar, the way the contract worked, if we were to 
accomplish the closure by the end of 2006 for $3.9 billion, our 
earnings would be $340 million. For every dollar we saved after 
that point, for our first portion, we earned 30 cents on the 
dollar, the Government got 70 cents. And then, after that, we 
earned 20 cents on the dollar and the Government got 80 cents. 
So, the total earnings for the project over the lifetime were 
$510 million, based on our being able to deliver $3.9 billion 
worth of work for about $3.3 billion.
    The Chairman. Terrific.
    Senator Salazar. Just one other quick question, if I may, 
Mr. Secretary--Nancy and Mr. Secretary. Again, part of the 
great success here is that we were able to avoid litigation 
that stopped this thing in its tracks. How did we do that in 
Colorado?
    Mr. Rispoli. I believe the answer was that, in the State of 
Colorado, there was tremendous support at all levels--both the 
State level and community level. And, as I mentioned earlier, 
the regulatory approach provided more flexibility than you 
would normally find, in that instead of--we have some 
situations, for example, where we have over 1,000 interim 
milestones. And you can either be measured against each interim 
milestone or the contractor can have more flexibility to keep 
up that forward momentum. But that takes a--I would say, a 
certain amount of trust on the part of the Federal Government, 
on the part of the regulator, and a contractor that obviously 
has performed superbly in this case. I think all of that, 
combined, is what helped us to achieve the success that we did. 
And, again, perhaps Nancy Tuor would like to add more to that.
    Ms. Tuor. Just briefly, sir, I would comment that, in 1995, 
the regulatory and stakeholder relationships at Rocky Flats 
were as difficult and contentious as they are probably anywhere 
in the complex today. Under the Governor's leadership, by 
appointing Lieutenant Governor Schoettler to lead the 
negotiation of the new regulatory agreement between EPA, the 
Colorado Department of Public Health and Environment, and the 
DOE, she came into that process and said, ``Before we can 
decide how, we must know what.'' And we reached agreement and 
an alignment between the regulators and the community on what 
the outcome would be, which then allowed us to deal with the 
details of its implementation. That alignment, I believe, and 
the working agreements that resulted from that, the long-term 
trust and coordination, really were a key--in fact, probably 
the largest single attribute of the success.
    Mr. Rispoli. Thank you, Mr. Chairman. And, once again, 
thank you for holding this hearing.
    The Chairman. Let's see, we have Senator Cantwell here, but 
let me just ask, before we get to you, did you get as much in 
here as you would like for today's session? We have your 
statement, you've answered some questions, but is there 
something else that we didn't ask you, on short notice here, 
that you want to tell the committee?
    Mr. Rispoli. Mr. Chairman, I think that--given the time and 
the tone, I think that we have conveyed what we would like to 
convey, but, of course, we remain available for any questions 
you or the committee may have.
    The Chairman. I would ask a couple of questions before 
yielding to the Senator.
    Senator Salazar mentioned delays caused by regulatory 
confrontations elsewhere. Were any lawsuits filed in this case 
that delayed the matter, from the time you entered into the 
agreements until your completion? And could you briefly 
describe that overall situation?
    Ms. Tuor. There were no lawsuits filed. And, indeed, in the 
last 2 years of the project, we received a letter from the 
State saying they were not going to establish any further 
milestones because we were so far ahead of their expectations 
that there was no longer a need for interim milestones.
    The Chairman. Could you tell me, either now or for the 
record, pick the other sites around the country, any one that 
comes to mind, and then, for the record, do them all, and tell 
us how many lawsuits have been filed on each of them, and about 
what, just in a kind of a record summary?
    Mr. Rispoli. Mr. Chairman, I certainly will give a for-the-
record summary. I will tell you that at a number of sites, 
obviously, we have had litigation, or we have other ongoing 
issues, but I think, in fairness, it would be better for me to 
give you a recap for the record.
    [The information follows:]

    Given the context in which this issue came up, the U.S. Department 
of Energy has interpreted the question to include administrative 
actions and lawsuits brought by states, their political subdivisions, 
or Indian tribes, alleging violations of environmental cleanup 
obligations. The specific cases are as follows:

  <bullet> Energy Technology and Engineering Center (ETEC): In October 
        2004, two environmental groups and the City of Los Angeles 
        filed a lawsuit alleging that the Department's cleanup 
        decisions and activities at ETEC fail to comply with the 
        Comprehensive Environmental Response, Compensation, and 
        Liability Act (CERCLA), including a 1995 Joint DOE and U.S. 
        Environmental Policy Act Policy on Decommissioning, the 
        Endangered Species Act, and the National Environmental Policy 
        Act (NEPA).
  <bullet> Fernald Closure Project (FCP): The Department remains 
        involved in a lawsuit filed by the State of Ohio in 1986 
        originally alleging that the Department failed to comply with 
        requirements of various environmental laws, including CERCLA 
        and the Resource Conservation and Recovery Act at the FCP. Most 
        of the State's claims have been settled under a consent decree, 
        but the State's natural resource damages claims remain pending.
  <bullet> Hanford Nuclear Reservation: There is a two-part lawsuit in 
        Federal court in which the State of Washington is suing the 
        Department. The first part addresses the applicability of the 
        Waste Isolation Pilot Plant Land Withdrawal Act Resource 
        Conservation and Recovery Act storage exemptions for 
        transuranic (TRU) mixed waste stored at DOE sites. The second 
        part (i.e., the NEPA Case), challenges the sufficiency of NEPA 
        analysis related to bringing off-site waste to Hanford; 
        specifically the State challenges the groundwater impacts 
        analysis in the Hanford Solid Waste Environmental Impact 
        Statement. Finally, Washington Initiative 297, passed by voters 
        in November 2004 and subsequently enacted into law, seeks to 
        bar DOE from importing any waste to Hanford ``until cleanup is 
        complete.'' DOE challenged the law in Federal District Court 
        and the Court granted a stay of the implementation of the 
        initiative until full resolution in court. In addition to the 
        above, the State of Washington has threatened to sue DOE 
        concerning alleged violations of Tri-Party Agreement milestones 
        associated with the Waste Treatment Plant. Those milestones 
        include starting operations in 2011 and disposal of all tank 
        wastes by 2028.
  <bullet> Idaho National Laboratory (INL): The Department remains 
        involved in a lawsuit filed by the State of Idaho in April 
        2002, alleging that the 1995 Settlement Agreement in this case 
        required the Department to dig up all of the buried TRU waste 
        from the Subsurface Disposal Area at INL. The Department 
        disagrees with the State's interpretation of the Settlement 
        Agreement.
  <bullet> Savannah River Site: The U.S. Department of Energy is 
        involved in one case filed by a South Carolina county, Aiken 
        County v. Bodman. Aiken County, filed on September 21, 2005, is 
        an Administrative Procedure Act case in which the county 
        alleges that the Department has violated section 3182 of the 
        2003 Defense Appropriations Act by failing to meet the 
        notification requirement of that Act concerning progress on the 
        Savannah River Site Mixed Oxide facility.
  <bullet> INL, Savannah River, and Richland. The Department appealed 
        the Idaho District Court's ruling in NRDC v. Abraham, that the 
        provisions of DOE Order 435.1, Radioactive Waste Management, 
        governing the Department's management of radioactive waste are 
        invalid insofar as they enable the Department to determine that 
        some waste associated with reprocessing spent fuel is not high-
        level waste. The court of appeals previously decided that the 
        plaintiffs' claims are not ripe for review and, therefore, it 
        vacated the district court's judgment and remanded the case 
        with directions that it be dismissed. The court of appeals held 
        that any challenge to DOE's Waste Incidental to Reprocessing 
        criteria and process should be framed as a challenge to an 
        actual application of those criteria and that process, not in 
        the abstract. The original lawsuit was brought by the Natural 
        Resources Defense Council (NRDC) and the Snake River Alliance. 
        The States of Idaho, South Carolina and Washington supported 
        the plaintiffs as amici (friends of the court).

    Mr. Rispoli. I would say that it does not have to be the 
norm to have litigation or difficult issues. If we're in a 
partnership, as I stated, we should work together, because 
that's what we all want is a successful cleanup. But, for the 
record, I will answer your question.
    The Chairman. Well, Mr. Secretary, you're new at this, and 
that wonderful statement that you just made just happens to be 
a wish, not a reality, that what you just said should happen. 
It doesn't happen, because some people don't want it to happen.
    But, in any event, my last observation and question would 
be, if the delays are not by litigation, as I am going to ask 
you--just asked you to tell us about, could you list each site 
and tell us what delays have occurred--and this could be a 
tough job, but, nonetheless, what delays have occurred, and 
why, so we will know, on each site what's happened?
    Mr. Rispoli. I will do that, Mr. Chairman.
    [The information follows:]

                         DELAYED BY LITIGATION
    Idaho National Laboratory and Savannah River Site: The planned 
closure of liquid radioactive waste tanks was delayed due to litigation 
regarding DOE authority to determine whether residual waste in tanks 
storing reprocessing wastes could be classified as other than high-
level waste under DOE Order 435.1, Radioactive Waste Management. This 
issue was addressed by
    FY 2005 National Defense Authorization Act section 3116 which 
established procedures for completing waste determinations in 
consultation with the U.S. Nuclear Regulatory Commission. Delays will 
continue until waste determinations are completed in accordance with 
section 3116.

                       DELAYED FOR OTHER REASONS

    Stanford Linear Accelerator Center, CA: The planned completion date 
for this project was originally FY 2006 based on the assumption that no 
further physical work was required beyond that date. A recent regulator 
decision has added soil and groundwater cleanup scope which has moved 
the completion date to FY 2010.
    Savannah River Site: The construction of the Salt Waste Processing 
Facility has been delayed due to the redesign of the facility based on 
DOE's implementation of a Defense Nuclear Facilities Safety Board 
recommendation that more stringent seismic criteria be used. A delay of 
approximately 26 months is projected at this time.
    Hanford Site: The decontamination and decommissioning of the 
Plutonium Finishing Plant has been delayed by uncertainties regarding 
off-site consolidation of special nuclear material. This delay will 
continue until either the material is transferred off site or a new 
storage facility is constructed at Hanford.
    The decontamination and decommissioning of the K Reactor Basins has 
been delayed by technical obstacles and performance issues. The project 
is currently being re-baselined with an expected three or more year 
delay in completion from FY 2008 to FY 2011 or beyond.
    River Protection: The construction of the Waste Treatment Plant has 
been delayed due to the redesign of critical portions of the facility 
to determine whether increased protection against a potential seismic 
event is needed. Cost increases and schedule delays are anticipated. 
Also delays in the emptying of tanks have occurred due to technical 
obstacles in conditioning the waste for removal. The Bulk Vitrification 
Demonstration Project is also experiencing delays in subcontract 
procurements. The impact on the project life-cycle from these delays in 
undetermined at this point.
    Idaho National Laboratory: The Advanced Mixed Waste Treatment 
Facility missed a December 2005 milestone for shipment of transuranic 
waste to the Waste Isolation Pilot Plant. The plant initially 
experienced startup delays, exacerbated by maintenance problems left 
from the previous operating contractor, as well as other issues 
associated with the availability of waste to ship. There were also 
delays associated with suspension of shipping authorization due to 
issues relating to drum characterization data. Good progress has been 
made recently, and the delay in meeting the milestone is expected to be 
by approximately two months.
    Energy Technology Engineering Center, CA: Completion date for this 
project is expected to extend from FY 2007 to FY 2009. Delay is due to 
ongoing negotiation with the performance contractor and site owner 
regarding cleanup work scope to be performed and the site end state at 
completion.
    Columbus, OH: This project is experiencing a minor delay in 
completion due to the discovery of higher contaminated soil volumes 
than expected. The projected delay is approximately three months, from 
December 2005 to March 2006.
    Depleted Uranium Hexafluoride Project, KY and OH. In August 2002; 
the Department awarded a contract to UDS with an estimated date to 
complete construction in August 2005. Due to delays in awarding the 
contract, the Department changed the construction completion date to 
March 2006. The 2006 completion date was based on the contractor's 
estimate without detailed design or independent review. Following 
completion of the detailed design and development of a validated 
project performance baseline, the current estimated date to complete 
construction is November 2007. The change in construction schedule 
reflects contractor design and procurement delays, design delays 
associated with increased safety features for seismic protection and 
containment of hazardous chemicals, and addition of DOE schedule 
contingency to increase confidence that the project's major milestones 
will be met.
    Amchitka, AK: The original completion date for this site was 
planned for FY 2005. Delay in finalizing the site closure strategy and 
documents have slipped expected completion to the end of FY 2006.
    Mound Plant, OH: The Mound project experienced an increase in scope 
when additional contaminated soil volumes were identified. The original 
estimate of 4.3 million cubic feet of contaminated soil requiring 
remediation has risen to 8.3 million cubic feet. The original 
completion date of March 2006 has been extended to an anticipated 
September 2006 completion date to accommodate the increase in soil 
volume.
    The additional soil volumes identified above do not include the 
planned remediation of Operable Unit 1. The Department and the 
Miamisburg Mound Community Improvement Corporation are currently in 
discussions to define the scope of work to be accomplished with the 
additional $30 million Congress appropriated in Fiscal Year 2006.

    The Chairman. And let me move now to the most difficult 
one, which Senator Cantwell will certainly talk about.
    You have told us that the Secretary's--is on the site that 
you have talked about in detail, the Hanford site, and he told 
me the same thing, that he understands this is one that we've 
got to get to the bottom of, and it's very tough. Could you 
tell me, now, have you made some changes in how this is going 
to be done? And do you need any help from Congress? You don't 
have to tell me that today, you can look into it, what we might 
do to make this a more forthright and expeditious cleanup. I 
think it's very important. The people there think it's just a 
matter of pushing a whole bunch more money in, which we try to 
do, but something seems to be missing that we have to get to 
the bottom of, on Hanford. Could you just address that for me, 
for a minute?
    Mr. Rispoli. Mr. Chairman, what I will tell you is that 
this project in the State of Washington is, in fact, the 
Department's largest capital project.
    The Chairman. Yes.
    Mr. Rispoli. And, as I mentioned, it may very well be the 
largest publicly funded project in the Nation, equal to 
building two nuclear power plants. The Secretary, himself, 
directed certain actions to be taken when we recognized the 
potential impact of what was happening. For example, he had us 
appoint an oversight team that now has full-time, dedicated 
oversight to this project, from the headquarters level. 
Additionally, he has directed that we reevaluate all the 
seismic concerns at the two facilities that are affected--the 
high-level waste facility and the pre-treatment facility--to 
ensure that when we build this plant, it is built safely for 
the workers, for the community, and for the people in the State 
of Washington.
    I, myself, upon being briefed by the after-action review 
team, took a number of actions. For example, we realized that 
we needed to have more people at that site with certain types 
of expertise, so we've assigned them. We've brought in the 
Corps of Engineers, as I mentioned earlier in passing, to help 
us with the seismic criteria--that is, the shaking-of-the-earth 
part--so we could get that right, as well as oversight over the 
contractor's engineering, to be sure that the contractor gets 
the engineering right.
    We have taken a number of actions already, based upon what 
we have learned from our after-action review team, to get this 
project back on track.
    And you're right, it's not--it's a very, very expensive 
project, but it's a very technically complex project, and we 
want to be sure that, going forward, we're doing it the right 
way to deliver the right product for the people of the State 
and our Nation.
    The Chairman. All right.
    Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman. And thank you, 
Mr. Chairman, for holding this hearing and for your diligent 
questions about the Hanford site. While, in fact, it is in 
Washington State, it is a Federal project and a Federal 
responsibility, and I appreciate all my colleagues' attention 
to what is the largest nuclear cleanup project, I believe, in 
the entire world.
    The Chairman. Yes.
    Senator Cantwell. And we certainly are spending billions of 
dollars doing it. And to meet milestones, I think, is very 
important.
    Mr. Secretary, thank you for being here. And I have a 
couple of questions for you, following on what the chairman was 
asking; specifically, about the projects and where we are, 
going forward.
    I guess my first question is, when you take into 
consideration--I mean, we're talking about seismic issues, but 
the seismic issues have been related to the vit plant; would 
you agree?
    Mr. Rispoli. Senator Cantwell, the seismic issues relate to 
two of the structures. One is the vit--the high-level 
vitrification plant--there's actually a low-activity and a 
high-level vit plant--and also a part of the project called a 
pre-treatment facility. Those are the two that have the impact 
from the change in the seismic criteria.
    Senator Cantwell. But if I look at my budget numbers 
correctly from what the President proposed and what the 
conference committee came out with, and if you include the 
President's rescission, we're talking about over $400 million 
in cuts from the 2005 level. And if I look at that, I look at 
over $200 million of that coming from the Office of River 
Protection and the tank waste project, not related to the vit 
plant. So, I look at a big chunk of that coming from something 
that I don't think has anything to do with seismic issues. Am I 
wrong there?
    Mr. Rispoli. Senator, my understanding of the appropriation 
side of the House is that, overall, the site--with the of the 
waste treatment plant, the site was actually plussed up by 
conference, by the Congress. This particular project, called 
the waste treatment plant, the conference language basically 
says that they will fund $526 million, instead of $626 million, 
with the expectation that the prior year balance--that is, the 
rescission--would be available for expenditure during fiscal 
year 2006.
    My belief is that, at the moment, we are waiting to see how 
that rescission plays out. The conference action has been 
completed, although not voted on by the full Congress, but we 
are still waiting to determine whether or not the rescission 
will be in effect.
    Senator Cantwell. I guess my question is, what does the 
$194 million and the cut from the 2005 level from the Office of 
River Protection, and the $35 million cut from the 2005 level 
of tank waste have to do with seismic issues? Do they have 
anything to do with seismic issues?
    Mr. Rispoli. Addressing the waste treatment plant, the $100 
million cut is related to the same project that is having the 
seismic issues. The other projects on this site are not.
    Senator Cantwell. The Office of River Protection dollars or 
the tank waste are related to seismic?
    Mr. Rispoli. The tank waste portion of the Office of River 
Protection, that work is not related, or does not have seismic 
implications. Only the waste treatment plant does.
    Senator Cantwell. Okay. So, my point is the $194.2 million 
that is a cut from the 2005 level of Office of River 
Protection, and the $35 million that is related to cuts from 
tank waste program have nothing to do with seismic issues. You 
just said that. So, I appreciate that.
    So, my question is, why are we seeing such significant cuts 
in these programs, which is--I'm saying it's going to be $200 
million of the $400 million that the administration is 
recommending in this area--when a lot of people are saying, 
``Well, there's a seismic problem''? I get the seismic problem 
at the vit plant, but what I don't understand is the additional 
$200 million in cuts to a project that has particular 
milestones to meet.
    Mr. Rispoli. Senator, let me answer your question, if I 
may, this way, in two parts. One is that within the Department 
and within Environment Management, it is clear to me that this 
project and this site are the most significant in the 
Department. This site receives nearly 30 percent of the 
Environment Management annual budget, nearly 30 percent to this 
one site. Clearly, it is our highest, most complex--highest-
priority, most complex site with all the issues that----
    Senator Cantwell. But it's receiving a 25 percent budget 
cut, when it has milestones to meet and an Inspector General 
report that said you were even shortchanging the accelerated 
cleanup that you were doing on the tank waste anyway, and now 
it's going to come in at a higher amount than what you 
anticipated. So, how do you take something that's your highest 
priority and give it a 25 percent budget cut and threaten the 
ability to make the milestones that you've agreed to in a Tri-
Party Agreement?
    And I understand the--if you hear frustration in my voice, 
it's the frustration of every new Energy Secretary that comes 
along wakes up to the Hanford problem and realizes that it's a 
huge obligation. We, in Washington State, know it's a huge 
obligation. We want the financial commitment to meet the 
milestones.
    Mr. Rispoli. Senator Cantwell, I appreciate your 
frustration. I guarantee you, I'm frustrated, as well. As I 
said, this is--in my book, it's the most significant project in 
Environment Management--the most complex and the most 
significant. Obviously, as I stated, the conference committee 
took $100 million off the budget request, followed by which, or 
about the same time as which, the rescission recommendation was 
made. As I indicated earlier, we don't know, at this point in 
time, whether that second amount, the rescission amount, will, 
in fact, stand, or whether it will not stand. We expect the 
conference language to stand, but we just don't know, at this 
point in time today----
    Senator Cantwell. Well, I would like a response. If you can 
look into the specific reasons why the $200 million for two 
different programs were cut, and we can get--you can give me 
specifics on that.
    What is your outlook for--I mean, do you think that this 
budget cut means that the administration might not meet the 
milestones laid out in the Tri-Party Agreement?
    Mr. Rispoli. We have already, on October 6, notified the 
State, and, I believe, your offices, as well as others in the 
Washington delegation, that we know that there are three 
interim milestones that will not be met. I would point out that 
the Department has already met 900 milestones, interim 
milestones, at the Hanford site, and there are 300 milestones 
to go. So, when we talked earlier about interim milestones, 
this site has a huge number of interim milestones.
    We notified the State that three of those interim 
milestones, in the near term, are not achievable. And we also 
notified the State that there are three other interim 
milestones which we believe are in jeopardy, although we do not 
yet know whether or not they will be missed.
    Senator Cantwell. I would like to see that document, as 
well, because I think the document that we saw earlier says 
that they ``might be missed.'' That was--there's a difference 
between saying something ``might be missed ''and ``will be 
missed.'' And if--again, if my concern sounds very--you know, a 
level of frustration, yesterday our attorney general and 
Governor held a press conference basically saying that they'll 
threaten lawsuits if milestones for completion aren't met, and 
that they think that the budget cuts are already a violation of 
the Federal Government's legal obligation. So, the State of 
Washington is very concerned on that.
    So, I think--I'd love to see the document that you--that 
they will--that the milestones were articulated that they would 
be missing.
    [The information follows:]

  <bullet> Complete Waste Treatment and Immobilization Plant hot 
        commissioning by January 31, 2011 (Milestone-62-10)
  <bullet> Complete K East Basin sludge removal by January 31, 2006 
        (Milestone-34-34)
  <bullet> Containerize K West Basin Sludge by June 30, 2006 
        (Milestone-34-35)
  <bullet> Complete four limited retrieval demonstrations and all tank 
        waste in Waste Management Area-C (WMA-C) by September 30, 2006 
        (Milestone-45-00B)
  <bullet> Submit supplemental treatment technologies report, by June 
        30, 2006 (Milestone-62-08)
  <bullet> Submit final waste treatment baseline by June 30, 2007 
        (Milestone-62-11)

    Senator Cantwell. How are you looking at the 2007 level of 
funding for this site? Are you looking at further cuts? Are you 
looking to make up what this 25 percent reduction has been? How 
are you looking at that, as it relates to attainment of future 
milestones?
    Mr. Rispoli. Senator Cantwell, there's--obviously, we know 
that that overall budget is not available, but I will tell you 
that if you look at the Hanford site as a whole, the amount of 
EM's budget it has represented year after year has been in the 
range of 28 to 30 percent. We do not see any significant change 
to that share for the Hanford site, although the exact numbers 
are not known to me today. But I do know that it's been in that 
range, and we intend for it to continue in that range.
    I'll also point out that, in the particular contract for 
the waste treatment plant, the contract itself assumes, and 
provides for, $690 million per year, for a period of time, to 
get that plant built. So, there are two indicators, you might 
say, that both go to answer your question.
    Senator Cantwell. But if you had--again, I'm sorry to keep 
focusing on these different numbers, but, to me, they're what's 
available, knowing what projections have been and what the IG 
report has said. So, if you've had a 25 percent reduction, and 
we've missed some milestones, and we could miss more, you would 
assume that if you're not going to make up for some of that in, 
particularly, the tank waste site, which the IG report, again, 
is just scathing on the fact that the plan missed by--I can't 
remember, but I think it's $100 or $200 million, the estimates 
of what it was going to take for cleanup. So, if you're not 
making a commitment today to try to make up for some of the 
reductions that we're seeing right now, then you'd have to draw 
a conclusion that you're going to miss a lot more milestones.
    Mr. Rispoli. Obviously, Senator, it is our intention to 
meet all of our regulatory requirements. At the present time, 
given the news on the 2006 budget picture and the rescission 
that we've recently learned of, obviously we need to go back 
now and reassess schedule and cost for the overall project. I 
don't have that information for you today.
    Senator Cantwell. If I could, Mr. Chairman, just ask 
another question about the tanks--the tank waste?
    The Chairman. Please.
    Senator Cantwell. Are you willing to acknowledge, today, 
that you're going to miss the milestones on the tanks?
    Mr. Rispoli. We believe that one milestone on the tanks is 
in jeopardy. It has to do with Tank Farm C. What I will tell 
you is that we have actually emptied three tanks from Tank Farm 
C--three single-shell tanks from Tank Farm C--and, at the 
present time, even as we're here today, we are currently 
retrieving waste from two more tanks in that tank farm, plus 
two tanks in Tank Farm F, which is not part of that same 
interim milestone. So, you see, it's not as though we have 
stopped making progress; we are working where we can to 
retrieve tank waste. And so, in addition to the three in Tank 
Farm C that are tied to that milestone that is in jeopardy, 
we're working two more in that tank farm and two other tanks in 
Tank Farm F; additionally, getting ready another tank in Tank 
Farm C to have the retrieval operations begin.
    I'd like to also point out that this past summer we also 
brought many of the other tanks into compliance with 
environmental regulation by upgrades to the piping and other 
parts of the components of the system to, again, reduce the 
risk in that area. So, although we have one milestone that 
deals solely with Tank Farm C, and we are making progress in 
Tank Farm C, again there are many other areas that we are 
pressing forward with tank waste outside of that milestone.
    Senator Cantwell. How should the State of Washington, the 
attorney general and the Governor, who are looking at the 
previous Tri-Party Agreement document, view what you just said 
as it relates to the deadlines for tank waste? I mean, are you 
saying you want to set new deadlines? Are you saying----
    Mr. Rispoli. I understand the frustration with the current 
situation with funding, and the technical problems at the 
plant, which cannot be minimized. Obviously, we have had, and 
are having, significant issues, and need to improve our 
management of that project. What I can assure you is that we 
are keeping forward momentum going. We intend to meet all those 
interim milestones. Again, you've picked one that is in 
jeopardy, but we're working on not only those tanks, but other 
tanks. But it is our intent to continue with forward momentum 
at that site to fulfill our responsibilities to the people of 
the State of Washington.
    The Chairman. Senator, I'll be happy to do a little 
changing of time here. Do you have one more?
    Senator Cantwell. Go ahead, Mr. Chairman. Go ahead.
    The Chairman. Do one more. Because we're going to leave 
here shortly. I want you to get your last question in.
    Senator Cantwell. Yes. I think that I've asked for a couple 
of things that I hope, Mr. Chairman, that we can follow up with 
the Assistant Secretary on. And I hope that----
    The Chairman. Whatever you need, get--you ask the 
questions, they'll submit answers quickly.
    Senator Cantwell. Yes. I think the--on documentation, about 
why $200 million was cut from this budget when it has nothing 
to do with seismic obligations, or seismic studies, what 
additional milestones--why the original milestones--the 
document that basically said milestones were missed, because I 
think that was a--more of an alert than a declarative and this 
process moving forward.
    Mr. Rispoli. We will get you that information.
    [The information follows:]

    During the course of Congressional deliberations on the FY 2006 
President's Budget request for the Waste Treatment and Immobilization 
Plant (WTP) at the Hanford site, the Department had been asked by other 
committees for the impact of a $100 million, $200 million, and $300 
million funding reduction from the $626 million request. The Department 
responded with those impacts.
    The Congress appropriated $526 million for WTP for FY 2006, which 
was a reduction of $100 million. In the Appropriations conference 
report, (accompanying H.R. 2419), the following language was included 
concerning this reduction.
    ``Office of River Protection--The conference agreement provides 
$329,471,000 for Tank Farm activities, and $526,000,000 for 
construction project 01-D-416, the Waste Treatment and Immobilization 
Plant. The high-level waste vitrification program at Hanford has had a 
long history of failure--more than $9,000,000,000 has been spent over 
the last 15 years. Based on a report by the Corps of Engineers, the 
estimated cost of the Waste Treatment and Immobilization Plant (WTP), 
originally $4,300,000,000, may rise to as much as $9,300,000,000, and 
the schedule may slip four more years to 2015. Reasons for these 
increases include: contractor estimating problems, technical problems, 
and insufficient project contingency.
    ``It is unclear what steps DOE will take to better ensure effective 
management and oversight of the project in the longer term. Based on 
this troubled history, the conferees provide $526,000,000, for the 
Waste Treatment and Immobilization Plant, a reduction of $99,893,000 
from the request. The conferees understand that $98,000,000 remains 
available from fiscal year 2005 to be used in fiscal year 2006 for this 
project. The Department needs better control and oversight of the 
scope, cost and schedule of this project, and the conferees direct the 
Department to report to the House and Senate Committees on 
Appropriations on the actions taken to rectify the management failures 
of this project, and to report quarterly on the activities and 
financial status of each of the subprojects within WTP.''
    As part of the deliberations by the Administration for the response 
to the Katrina Disaster, the Administration had proposed a $100 million 
reduction for the FY 2005 funding as part of an overall Administration 
rescission package. However, the FY 2006 Defense Appropriations 
Conference Report H.R. 2863 indicated that the Administration's 
proposed $100 million offset from EM's WTP project as part of the 
Katrina Supplemental was dropped. As a result, no DOE funding will be 
used as a funding source to offset the Katrina Supplemental.
    The Department remains committed to the Tri-Party Agreement (TPA) 
and to meeting all objectives for completing the cleanup of tank waste 
at Hanford. However, because of difficulties, such as sludge removal 
issues at the K Basins and WTP issues, some of these milestones are not 
achievable. The Department informed the State of Washington, members of 
the Washington Congressional delegation, and committees of 
jurisdiction, including the Senate Energy and Natural Resources 
Committee, on October 6, 2005, when it knew that milestones would be 
missed. In that notification, the Department stated its belief that 
three near-term interim TPA milestones, one for the WTP and two for K 
Basins, are not achievable:

  <bullet> Complete Waste Treatment and Immobilization Plant hot 
        commissioning by January 31, 2011 (Milestone-62-10)
  <bullet> Complete K East Basin sludge removal by January 31, 2006 
        (Milestone-34-34)
  <bullet> Containerize K West Basin Sludge by June 30, 2006 
        (Milestone-34-35)

    The Department also believes three near-term milestones associated 
with the commissioning of the WTP, the treatment of tank waste, and 
certain tank retrieval related activities are in jeopardy:

  <bullet> Complete four limited retrieval demonstrations and all tank 
        waste in Waste Management Area-C (WMA-C) by September 30, 2006 
        (Milestone-45-00B)
  <bullet> Submit supplemental treatment technologies report, by June 
        30, 2006 (Milestone-62-08)
  <bullet> Submit final waste treatment baseline by June 30, 2007 
        (Milestone-62-11)

    The Department will notify Congress and the State of Washington 
should other milestones be in jeopardy.

    Senator Cantwell. But I guess, Mr. Chairman, I don't have 
any further questions, as much as I would like to say, for the 
record--and I know that my colleagues have seen a copy of this 
IG's report--that Hanford cannot keep just getting the short 
end of the stick just because it's the largest cleanup project. 
We can't keep missing milestones, and we can't keep spending--
not millions, or hundreds of millions, but billions of dollars, 
and just have new Assistant Secretaries come through. The 
reason we got to the Tri-Party Agreement was because of missed 
plans and obligations. And so, I think we're at a conclusion 
now that if the administration isn't stepping up to a reversal 
in the 2007 budget of some of these cuts to the tank waste, as 
the inspector general is saying is a major problem with product 
flow of contamination, then the State of Washington will have 
to take action on this. And so, I hope that you will look at 
those numbers, particularly as it relates to the Office of 
River Protection and tank waste cleanup, and make a commitment 
for the 2007 budget that reflects the milestones that have been 
agreed to in the past.
    I hope, Mr. Chairman, that this committee could help in the 
discussion of that as we move forward. I understand that 
anytime you can look for hundreds of millions of dollars to cut 
in a budget, it's a big target, but this is a critical project 
for the country, to clean up and to move forward, and not to 
continue to push out for many years new proposals and new 
programs.
    So, I hope, Mr. Chairman, that the committee will, in its 
process of oversight, take an aggressive role, on the Hanford 
issue particularly. Even thought it resides in the State of 
Washington, as I said, it affects an entire region and the 
entire country. And the fact that we have almost 70 tanks that 
have been confirmed having suspected leaks, and that there are 
a million gallons of waste being discharged into the soil, that 
that becomes a national priority, and not just having the two 
Senators of Washington constantly pushing for. Mr. Chairman, I 
hope that the fervor, of which you fought for Los Alamos, will 
help in shining some light on the challenges we have with this 
particular budget moving forward.
    So, I thank the Chairman.
    The Chairman. Well, let me say, we're getting close to 
adjournment here, and, Senator Cantwell, any questions you 
submit will be answered. What would be a--is 10 days adequate? 
You're very busy. Let's say 2 weeks.
    Mr. Rispoli. Mr. Chairman, that's--yes, sir.
    The Chairman. Because there'll be questions for both of 
you. I will submit some also.
    Let me ask, am I correct--if you know; if not, you can find 
out--what is the total budget? The total amount--if I'm correct 
here, the total amount appropriated--this is for year 2006--for 
cleanup is $6,659,000,000. That's the largest line item in the 
appropriation bill that covers the Corps of Engineers, all of 
the Defense nuclear work. No, I'm not talking about Washington; 
I'm talking about all of them. So, the record should reflect 
that, you know, it's not like this U.S. Government isn't 
spending a lot of money. The problem is, we don't get any 
success, we don't achieve. That's why we are so pleased to have 
you up here.
    Senator Cantwell, I want to suggest--and this is from a 
Senator that is very concerned and wants to get this done, and 
wants to fund it, you know--maybe all the leadership at the 
State level, all the regulatory entities, the National 
Government, maybe they all ought to sit down and think about 
another agreement. Something's wrong with the way this project 
has to be managed by those who manage it. It's not all-those-
who-manage-it's fault. Some of it is that the requirements are 
so difficult, the way we have done it, and nobody wants to 
change, because, you know, when somebody suggests change, it is 
violating the environmental concerns of those involved. You 
heard, Colorado doesn't even have any milestones. It's 
incredible. All we talk about is milestones, hundreds of them. 
They didn't have any. Is that correct, Senator? Written-in 
milestones. Is that right?
    Ms. Tuor. That is correct, in the later years of the 
project.
    The Chairman. None. So, in the early years--so, I don't--
I'm not trying to con anybody here. Tell us about the 
milestones in the early part of the project.
    Ms. Tuor. Mr. Chairman, in the early part of the project, 
we did have milestones that were similar to those at other 
sites, but once we agreed with the regulators on our baseline 
plan, starting in 2000, under the closure contract, the 
regulators agreed to dispense with individual milestones and 
measure us based on the percentage of the work that was planned 
each year that we actually accomplished. So, we set an 
agreement on how much environmental remediation work, how much 
building demolition, and if we accomplished a certain 
percentage of that, then we were in compliance. What that did 
was give us the flexibility, if we ran into technical problems 
in one place to move assets and resources and to continue the 
forward progress on the project.
    The Chairman. Let me ask another question, Mr. Secretary. 
There were incentives built in. We even had the representative 
of the company tell us what they were, in dollars. Are there 
incentives built into the contract in Washington?
    Mr. Rispoli. Yes, Mr. Chairman, there are incentives. In 
fact, with some of our contracts there, there have been 
significant, you might say, deductions from the available 
incentive because of these types of things.
    The Chairman. Right.
    Mr. Rispoli. I think your suggestion is certainly a valid 
one, in that, as I mentioned, we have met 900 milestones at 
Hanford, and you don't see a lot of celebration of the ones 
we've met. But there are 300 to go, and we're talking about 
missing three, and another number--a small number in jeopardy. 
But I think the approach was so different that it gave the 
contractor the flexibility to keep forward momentum; even if 
you encounter a roadblock here, you can redeploy workforce 
there to keep forward momentum.
    The Chairman. And my last question. How many workers are 
employed, in total, for the project that we're talking about in 
Senator Cantwell's State? Do you know? Maybe the Senator knows.
    Mr. Rispoli. Well, I can answer specifically for the 
Hanford Waste Treatment Plant. At the present time, the Hanford 
Waste Treatment Plant has 2,600--approximately 2,600 workers 
onsite.
    The Chairman. Now, you said ``treatment plant.'' Is there 
something else besides that?
    Mr. Rispoli. Yes. That is the one significant capital 
project that has been most of the discussion. But yes, sir, 
there are far more workers there at the site that are working 
on tank farms, K basins, soil and groundwater remediation----
    The Chairman. How many?
    Mr. Rispoli. I'll get that back to you for the record.
    The Chairman. Right. Is it four times as much?
    Mr. Rispoli. Oh, I'm sure. Yes, sir.
    [The information follows:]

    In November 2005, there were approximately 9,600 contractor 
employees at the Hanford Site, excluding the Waste Treatment Plant 
workers.

    The Chairman. Does anybody know? If you don't, can you put 
in the record how many employees there were when this project 
was not a cleanup site, but was an ongoing site, where we were 
actually doing a--where we had nuclear reactors producing the 
substances for the Defense Department? Can you get us the 
number of how many were employed then?
    Mr. Rispoli. I will do that, yes, sir.
    [The information follows:]

    Prior to the transfer of the Hanford Site landlord responsibilities 
to the Office of Environmental Management in 1992, the site employed 
approximately 15,000 contractor employees.

    The Chairman. Let me say, when I suggested here, for the 
record, and was addressing--in a sense, perhaps I should not 
have to--but when I said maybe we should all sit down and see 
if we couldn't have a more operative agreement, I want 
everybody to know I'm not an expert in the field. All I know is 
that there are going to be constant concerns about funding. And 
I don't know how to do it. I mean, nobody is giving the 
Congress enough money, and the budgets don't have it. No matter 
who is the President, they can't--they don't put in their 
budget what's requested. So, we have to find some way to do 
this more reasonably priced and still get it done. We can't 
just continue to say we can't achieve under it. There ought to 
be some human capacity to enter into a--in a knowledgeable way 
to something better. And that's all this Senator is suggesting.
    But actually, it's the Appropriations that puts up the 
money. The Senator knows that. And we get a limited amount for 
all the things we have to do. And we can't go out and say, 
``You've got to abolish the Corps of Engineers.'' We have to 
allocate the money. And so, people out there in the West ought 
to know, it's a big problem. And those who oppose and argue and 
insist and litigate--you know, they all ought to say, ``Let's 
sit down and see what in the world can be done.'' Now, maybe 
there's nothing.
    I'm going to ask the Secretary, personally, whether he 
could see some leeway that that might help with the situation. 
I may be totally wrong.
    With that, Senators----
    Senator Cantwell. Mr. Chairman, could I just add, for the 
record, that it is 11,000 workers at the Hanford, 11,000. And 
I'm well aware of your dual role, and that's as an appropriator 
and an authorizer. That's why I'm hoping that I can get you 
more engaged in the creative issues on this----
    The Chairman. Senator, I'm about as engaged as somebody who 
doesn't live there can be.
    [Laughter.]
    Senator Cantwell. Good. Well, I'm happy to hear that, 
because I think the history is just as you've described, a role 
of getting people involved. Again, it's the enormity of the 
project. So, I look forward to working with you on it.
    Mr. Rispoli. Mr. Chairman, if I may, for the record, just 
state that the Secretary has met with Governor Gregoire, and 
has had several discussions by phone with her, and we are 
working to try to normalize relations in the State. And I 
believe that the relationship has been quite productive in that 
regard.
    The Chairman. Yes, well, I want to state for the record 
here--and there may be some press from out there; it looks like 
the only ones here must be interested in this issue and that's 
why they came--if the State is looking for a Secretary that 
understands and is capable of putting something together--no, 
I'm not in any way being pejorative about any other 
Secretaries, but this man can do it, if they will just sit down 
and work with him. He is extremely talented in matters of 
science and engineering, and has been an executive and knows 
how to do it. He's committed to this one. And I would hope that 
people would think maybe this is time to start anew. And I urge 
that.
    With that, I thank the Senators for coming, particularly 
Senator Salazar, you've devoted a great deal of time here, and 
you are proud of that project out there in front of us, and you 
should be.
    [Whereupon, at 11:15 a.m., the hearing was adjourned.]


                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

                              Department of Energy,
 Department of Congressional and Intergovernmental Affairs,
                                  Washington, DC, February 9, 2006.
Hon. Pete V. Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Mr. Chairman: On November 15, 2005, James Rispoli, Assistant 
Secretary, Office of Environmental Management, testified regarding the 
evaluation and receipt of a status report on Environmental Management 
programs of the Department of Energy.
    Enclosed are the answers to 61 questions that were submitted by 
you, Senators Alexander, Smith, Bunning, Bingaman, Cantwell, and 
Salazar.
    Also, enclosed are the four remaining inserts that you and Senator 
Cantwell requested to complete the hearing record.
    If we can be of further assistance, please have your staff contact 
our Congressional Hearing Coordinator, Lillian Owen, at (202) 586-2031.
            Sincerely,
                                             Jill L. Sigal,
                                               Assistant Secretary.
[Enclosures.]
                    Questions From Senator Domenici
    Question 1. With the cleanup and closure of the Rocky Flats site an 
apparent success, how does EM plan on incorporating the lessons learned 
from that experience into future contracts for site closures?
    Answer. Lessons learned from the accelerated closure of Rocky Flats 
will be used by at least four different methods. First, the Department 
has established a Consolidate Business Center (CBC) and is transferring 
``closure cadre''--EM staff who lived through Rocky Flats closure--to 
the CBC to support closure of other sites.
    Second, the Rocky Flats Project Office is developing a lessons 
learned seminar for managers at other cleanup sites. Top-level 
discussions such as contract and project management, regulator and 
stakeholder interactions, and Federal staff management will be framed 
in a presentation format and sent to other cleanup sites. EM 
Headquarters will consider this in development of acquisition 
strategies for new contracts.
    Third, the Department also is preparing a lessons learned document 
entitled The Rocky Flats Closure Legacy. The document takes a two-
tiered approach at describing the lessons learned. The first tier 
addresses strategic planning issues, and their convergence during the 
early stages of the project. Successes, failures, and key learning 
points are described and analyzed. The second tier of discussions 
addresses lessons learned related to implementation of the project. The 
chapters describe in detail some of the most relevant technical and 
management challenges that were faced throughout implementation of the 
ten-year closure project. This will be used in formulating strategy for 
new contracts.
    Lastly, a digital video disk (DVD) and 30-page brochure are being 
produced that synopsizes the cleanup effort and key challenges.
    Question 2. When do closure contracts make sense for the 
department, and what are the risks and benefits associated with such an 
approach?
    Answer. Closure contracts make sense when the Department has 
clearly defined end states. The Rocky Flats site is a prime example of 
this. The Department's mission to support national defense at that site 
was over and the environmental cleanup mission had a finite life. 
Additionally, a clear scope could be developed since the end point was 
defined in accordance with regulations. From this scope, a relatively 
high-confidence baseline that described the remaining work could be 
developed. Therefore, a closure contract was appropriate to complete 
the work and close the site.
    There are several benefits associated with this type of contract, 
which is a cost-plus-incentive fee contract. These include establishing 
site-wide incentives instead of individual incentives for subprojects, 
establishing total project cost incentives with a negotiated Federal 
government and contractor share for any savings realized, establishing 
project schedule incentives, and an increased focus on project 
management. This emphasis on total site performance allows the 
contractor to manage all of the work and allows the Department to focus 
on project and contract management oversight.
    The risks associated with a closure contract revolve around the 
effectiveness of the Department's and the contractor's project and 
contract management systems and the ability to manage project risk. It 
is essential that effective systems be in place to monitor the progress 
of the work. For example, there must be a baseline with a high degree 
of confidence established to describe and track the project's cost and 
schedule. Uncertainties (i.e., project risks that include a validated 
earned value management system) must continually be identified, 
assessed, and mitigated. Also, regular progress reports must be 
developed and analyzed to verify contract performance and any potential 
savings.
    Question 3. With the closure of the DOE EM sites, there has been 
much interest in the Department's plans for administering retiree 
pension and medical systems. As I noted in a letter to Secretary Bodman 
earlier this year, the U.S. taxpayer is entirely responsible for this 
obligation. I also expressed concern that the Department's actions on 
the disposition of these programs could have a significant impact on 
drawing the best employees and best contractors to do this important 
work.
    Answer. DOE officials briefed Senate and House staff members on the 
Department's general approach regarding the provision of pension 
benefits to facility management contractor employees. Pursuant to this 
approach, incumbent employees who are employed by a contractor under a 
new contract(s) will remain in their existing pension plan(s) pursuant 
to plan eligibility requirements and applicable law; that is, ``if 
you're in, you're in.'' However, contractors selected for award of a 
new contract(s) will be required to provide market-based pension plans 
for new, non-incumbent employees hired after contract award. DOE 
believes this is a fair approach that reflects current best commercial 
practices and will enable the Department to continue to attract the 
best employees and contractors. With respect to medical benefits for 
contractor employees, the Department is currently assessing its 
approach.
    Question 4. What actions has the Department taken since my 
communication to implement a workable program for the future?
    Answer. As explained in Question 3, recently the Department has 
been briefing House and Senate staff on the Department's general 
approach to the provision of pension benefits for contractor employees 
and is currently assessing its approach with respect to medical 
benefits. The Department anticipates completing a formal policy 
statement concerning contractor employee benefits in the late winter 
timeframe.
    Question 5. GAO recently reported that DOE was unlikely to achieve 
the $50 billion in savings originally attributed to implementing the 
accelerated cleanup strategy. Given significant potential project cost 
increases--such as those associated with Hanford's Waste Treatment 
Plant--does DOE still believe it will achieve any savings? If so, what 
savings does DOE believe it can achieve and how?
    Answer. Some of the assumptions upon which the Department's 
estimate of $50 billion in cost savings have not materialized. In 
addition, changing circumstances and emerging requirements have led to 
an increase in the scope and thus cost of the Environmental Management 
program. However, the Department still believes that focusing on risk 
reduction rather than risk management is fundamentally sound and based 
on the independent audit of the Department's financial statement, 
should result in life-cycle savings.
    Question 6. Under the accelerated plan, DOE's project risk has 
become significantly greater than under DOE's prior cleanup strategy. 
What implications does the higher project risk have on DOE's ability to 
reduce environmental risk and realize cost and schedule savings 
expected under the accelerated strategy?
    Answer. While an accelerated cleanup strategy may result in higher 
project risk on certain projects because of more aggressive schedules, 
environmental and safety risk are, in fact, decreased. The accelerated 
cleanup strategy has demonstrated significantly decreased long-term 
public, worker and environmental risk and cost by cleaning up, closing 
out, treating, or disposing of radioactive wastes much earlier, rather 
than later when the potential costs for remediation, environmental and 
human exposure risks are much greater. However, the Department still 
believes that focusing on risk reduction rather than risk management is 
fundamentally sound and based on the independent audit of the 
Department's financial statement, should result in life-cycle savings.
    Question 7. Recently, the Department has been criticized for 
attempting to reduce overall costs and schedule by accelerating its 
cleanup work but at the same time increasing operational risks and 
risks to worker safety. What steps do you think could be taken to avoid 
increasing these risks and to ensure that the work is performed timely 
and in a safe and reliable manner?
    Answer. The Department of Energy and its contractors emphasize the 
overriding priority of safety. This is done through proven methods, 
including oversight by contractor staff and DOE safety specialists and 
facility representatives; incentivizing safety by tying contract award 
fees to safety performance (48 CFR 9705215-3, Conditional payment of 
fee, profit, or incentives contract clause); expanding job-specific 
training opportunities, including mockups of complex activities; and 
frequent jobsite walkthroughs by senior managers.
    The Department integrates the protection of the environment, safety 
and health into the way it does work. This integration is implemented 
through the 48 CFR 970.5223-1, Integration of environment, safety, and 
health into work planning and execution contract clause. The core 
functions of the DOE Integrated Safety Management System (ISMS) require 
contractors to: 1) define the scope of work; 2) identify and analyze 
the hazards; 3) develop and implement hazard controls; 4) perform work 
within the controls; and, 5) provide feedback and continuous 
improvement. These functions ensure safety and health are integral 
considerations as work is planned and conducted. Contractor ISMSs are 
verified as effective by DOE, and contractors and field element 
managers are required to provide an annual declaration to the adequacy 
of their programs to the Assistant Secretary for Environmental 
Management. The Environmental Management (EM) ISMS worker safety 
performance has been good and compares very favorably to private 
industry. For calendar year 2004, the total recordable injury rate for 
EM activities was 1.4 injuries per 200,000 work hours as compared to 
the overall private industry rate of 4.8. While the EM program has 
demonstrated good safety performance doing hazardous cleanup work, the 
program has recently initiated a DOE-wide effort to further enhance 
ISMS. This effort includes development of site action plans to improve 
work planning and feedback and improvement, and to provide increased 
Headquarters' oversight of the ISMS annual verification process.
    Question 8. Over several decades, the Department has had mixed 
results in developing and implementing new technologies as part of its 
nuclear waste cleanup efforts. Several of its technology failures have 
been costly and have hampered cleanup progress. The Department's 
current accelerated cleanup approach and schedule assumes that several 
technologies currently under development (such as those for the Hanford 
waste treatment project) will be successfully developed and deployed 
under-very aggressive time frames for treating portions of the waste. 
What steps are you taking to ensure that the Department has identified 
and fully tested and demonstrated the best available technology to use 
in treating the waste?
    Answer. Annually, the Office of Environmental Management (EM) 
requests funding for technology development activities to provide 
innovative and better technologies to support the EM cleanup mission 
priorities. Identifying and assessing the EM complex technology gaps in 
site baselines is the responsibility of EM Headquarters and is the 
first step. This assessment is conducted for the entire life-cycle of 
the EM cleanup program. The next step is establishing the priority of 
candidate technology areas for each site. This is done collaboratively 
with the respective field site contacts, and is an iterative and 
integrated process. Following this assessment, a recommended list of 
technology needs for new funding is completed, and acquisition plan(s) 
developed and approved by EM Headquarters. The acquisition plan 
describes the appropriate contract type and duration of work (Phases).
    Subsequently, competitive Requests For Proposals are issued by EM 
Headquarters to solicit proposals from the private sector. A Source 
Selection Board, comprising Federal experts in specific technology 
areas, is assembled to conduct a technical evaluation of the proposals 
and to submit recommendation(s) to the Source Selecting Official.
    Finally, selection of the proposed technology(s) is completed and 
the contract(s) is awarded. The technology development, testing, and 
deployment are carried out via the contract requirements.
    Question 9. In the past couple of years, DOE has incurred several 
bid protests after making contract awards--for example, the Hanford 
River Corridor Contract received two bid protests. These protests waste 
time and resources. What is DOE doing to ensure that future bid 
protests are minimized?
    Answer. The Department of Energy cannot prevent protests from being 
filed by offerors who disagree with the Department's procurement 
selections or its solicitations. The Competition in Contracting Act 
clearly provides them with the right to file such challenges, and the 
robust competition for DOE contracts means that there are offerors who 
do not win competitions.
    DOE takes a number of actions to minimize the incidence of protests 
and to efficiently deploy the resources needed to address protests. DOE 
does extensive planning for debriefing unsuccessful offerors and 
continues to collect and implement lessons learned. Because the 
proposals submitted by the offerors and the details of DOE's evaluation 
are not public information, unsuccessful offerors frequently cannot 
obtain the information they would like to see about their competitors 
in order to decide whether a protest would be well-founded. However, 
DOE attempts to provide the maximum information in debriefings to 
enable companies to decide that a protest is not warranted. In 
addition, DOE has pioneered the use of early, electronic document 
production in protests where the U.S. Government Accountability Office 
has issued a protective order that permits attorneys for the parties to 
review proposal and source selection information. This facilitates 
protesters deciding early to withdraw or refine their protests, and 
reduces the amount of effort needed to provide the documents.
    In order to strengthen the procurement process, the Department is 
conducting a review to identify improvements to the process. The Office 
of Environmental Management (EM) is developing an improved acquisition 
model to streamline the process using lessons learned from past 
procurements. EM will create a Deputy Assistant Secretary position 
specifically for acquisition and project management to oversee 
implementation of the results of the Department's procurement review. 
This Deputy Assistant Secretary will be responsible for incorporation 
of ``real time'' lessons learned and for ensuring that procurements are 
consistent, defensible, reproducible and completed on a reasonable 
schedule. EM is also planning to hire and train employees to enhance 
its staffs procurement capabilities.
    Question 10. What oversight steps does DOE plan to implement to 
ensure that its contractors develop reliable cost estimates, including 
contingency funding, for completing environmental cleanup projects? It 
is important to our national energy security and economic 
competitiveness that the Department support efforts to bring the next 
generation uranium enrichment facility utilizing domestic enrichment 
technology to the commercial marketplace. In order to meet the schedule 
for constructing such a facility in Piketon, the Gaseous Centrifuge 
Enrichment Plant (GCEP) buildings must be cleaned up, the waste stored 
in the buildings must be removed and they must be turned over by the 
Department on or before September 30, 2006. Congress specifically 
appropriated money to accomplish this in order to make the buildings 
available for the construction of a new enrichment facility. Can you 
assure this Committee that the Department is on track to remove all of 
the waste, clean up the GCEP buildings and turn them over on or before 
September 30, 2006 for construction to commence on time?
    Answer. The Department typically requires a scope, cost, and 
schedule baseline be developed within 60 days of contract award. The 
contractor's baseline is reviewed by site personnel and approved by the 
Contracting Officer. This baseline is then placed under Office of 
Environmental Management (EM) Headquarters' configuration control by 
the cognizant Departmental field manager. Any changes require 
submission of a baseline change proposal. Scope, cost and schedule 
baselines are reviewed periodically by EM Headquarters. The Department 
has determined that an improved acquisition and contract administration 
strategy is needed to incorporate lessons learned and to integrate 
fundamental project management principles that may be lacking in some 
instances. This includes more effective implementation of project 
management principles and discipline in accordance with both industry 
practices and the Department's own project management directives, which 
have been reviewed by the National Academy of Sciences.
    With respect to the Gaseous Centrifuge Enrichment Plant (GCEP), the 
project has experienced delays and will not meet all of the activities 
to complete the September 30, 2006, milestone. Issues that have delayed 
the schedule include obtaining the necessary security clearance levels 
for the workforce, obtaining an approved security plan for the 
disassembly operations, and obtaining cleared drivers for transporting 
classified waste. In addition, DOE identified a small amount of waste 
that does not have a current disposition path and may require on-site 
treatment. The Department has made every effort to mitigate the 
schedule delays to accommodate the GCEP turnover. DOE has daily and 
weekly project status meetings, monthly project reviews, and conducts 
surveillances/assessments to ensure contractor performance.
    The Department is continuing efforts to make facilities available 
to the United States Enrichment Corporation (USEC) to support its 
development needs. In a June 2002 Agreement between DOE and USEC, both 
parties agreed to make long-term commitments to support the further 
development of gas centrifuge technology. As a result, the February 17, 
2004 Agreement between DOE and USEC for Lead Cascade activities at 
Portsmouth was negotiated and signed. Accordingly, all facilities and 
areas identified in the February 17, 2004 Agreement have been leased to 
USEC to support its Lead Cascade construction activities. To further 
support USEC's activities, DOE entered into negotiations for a new 
lease arrangement with USEC. Currently, these negotiations have not 
been completed, and a schedule for turnover of the GCEP facilities is 
still being negotiated with USEC in accordance with its actual 
requirements. The turnover schedule being negotiated identifies a 
sequence of target turnover dates for several GCEP facilities and 
systems. In accordance with this schedule, many facilities have already 
been leased to USEC, and more will be leased as late as December 2006 
and a few in 2007. Our plan focuses on the need and schedule for each 
area of the GCEP facilities in sequence.
    Question 11. After nearly five years of construction work on the 
largest, most complex waste treatment plant in the country, Hanford's 
Waste Treatment Plant, DOE discovered the plant was being built based 
on inadequate seismic requirements. As far back as 2002, the Defense 
Nuclear Facilities Safety Board cautioned that the plant design was 
based on inadequate seismic requirements, yet construction of the plant 
using the inadequate standards went forward. In a recent study, the 
Pacific Northwest National Laboratory concluded that the standards were 
inadequate by today's seismic requirements. As a result, the plant 
design may have to be reworked on the partially built waste treatment 
facility at a significant additional cost. How did this fundamental 
miscalculation happen?
    Answer. The seismic design requirements for the Waste Treatment 
Plant (WTP) site were changed in early 2005 due to extensive 
recalculation of the effects of uncertainty in soil properties in the 
mudstone and siltstone layers located 350 to 1,200 feet underneath the 
WTP site. The effect of these layers was estimated in 1993 through 1996 
design basis calculations developed by Geomatrix, Inc., Westinghouse 
Hanford, Pacific Northwest National Laboratory, and Fluor Hanford. 
Between 1996 and 1999 the design basis calculations were technically 
reviewed by British Nuclear Fuels Limited, Bechtel National Inc., 
nationally recognized independent expert consultants, Lawrence 
Livermore National Laboratory, and the U.S. Army Corps of Engineers 
(USACE). In 1999, DOE accepted their recommendations and adopted the 
seismic design basis for the WTP.
    The seismic ground motion criteria changed in 2005, principally due 
to incorporating a much greater range of these potential soil 
properties than heretofore. The extensive calculation of the effects of 
variable layer properties was not required (or performed) when the 
plant design was commenced in 1997. The Defense Nuclear Facilities 
Safety Board (the Board) identified three specific concerns in its July 
30, 2002, letter to DOE: the probability of tectonic activity of the 
anticlines and associated faults for the Yakima Fold belts; the 
spectral amplification associated with the attenuation relationship; 
and the amplified floor and equipment response of the superstructure. 
On September 18, 2002, DOE issued an extensive response to the Board's 
July 2002 letter (ORP/OSR 2002-2 Office of River Protection Position 
Concerning Assumed Probability of Tectonic Activity and Adequacy of 
Ground Motion Attenuation Model Used in the Design of the Waste 
Treatment Plant). This response, which included a variety of new 
analyses using improved calculational methodology, concluded that the 
existing design basis was adequately conservative. In January 2003, the 
Board agreed that most of these issues had been resolved 
satisfactorily, but the Board indicated that the site ground response 
modeling was still not considered sufficiently conservative. In 
response in 2003, to further confirm the calculated basis, DOE began a 
program to acquire additional data regarding the site. The data 
acquired was limited due to difficulties acquiring it (for example, a 
leak developed in the polyvinyl chloride well casing at the 360 ft 
depth). Cementing of the casing to repair the leak had a deleterious 
effect on the soil, sand and gravel in the vicinity which interfered 
with receiving clear signals using the suspension logging system in the 
borehole, but when analyzed and combined with intensive re-examination 
of available data, using a much more extensive modeling of site 
performance than heretofore, the Pacific Northwest National Laboratory 
determined in late 2004 that unfavorable stiffening of the sandstone 
and mudstone interbed layers located between 350 and 1,200 feet under 
the WTP site could allow earthquakes to shake the site more severely in 
the building frequency range of 4-6 Hertz than had been previously 
calculated. The Department has engaged the USACE to assemble a panel of 
seismic experts to review and affirm the seismic criteria before going 
forward.
    Question 12. Why did it take so long to find out that the seismic 
standards were inadequate?
    Answer. Development of seismic ground motion criteria is an 
intensive process that generally takes 18-24 months to complete. 
Modifications to these criteria require a similarly careful and 
deliberate process involving expert geologists, seismologists, and 
geophysicists. The time spent to revise the criteria in this case was 
not excessive, but was proportionate to the potentially significant 
impact of any increases in the criteria.
    Question 13. How will the Department improve its oversight 
practices to avoid such a fundamental problem in the future?
    Answer. On August 10, 2005, the Secretary of Energy issued a 
memorandum that laid out a strategy for aggressive and disciplined 
project management for the Department. The strategy focuses on four 
main areas: 1) strict adherence to DOE Order 413.3, Project Management 
for the Acquisition of Capital Assets; 2) training, education, and 
experience; 3) recognition of superior performance by program managers, 
project directors, and contracting officers; and 4) accountability of 
program managers, project directors, and contracting officers for 
meeting project cost, schedule and performance targets. The DOE Project 
Management System includes several rigorous internal and external 
independent reviews throughout the life of a project that are performed 
by senior expert professionals. They assess and evaluate the existence 
and implementation of key project management, project control, 
business, and technical systems and processes on an ongoing basis. The 
Department has sound project management policies and procedures in 
place and a capable workforce committed to successful performance. We 
need to vigorously pursue both increased competencies in program 
management and more consistent application of the standard practices.
    Question 14. Other recent problems at the Hanford waste treatment 
plant could result in project costs increasing significantly. How will 
DOE assure the Congress that DOE can manage this project in the future 
so that project problems will be minimized and cost increases 
prevented?
    Answer. The Secretary of Energy has implemented several key 
initiatives to address the cost, scope, schedule, contract, and 
management issues associated with the Waste Treatment Plant (WTP) 
project. They include: 1) assembling a Headquarters' senior level 
management team to oversee the project comprised of individuals with 
specialized expertise in cost, contracting, management, and technical 
design/engineering that will conduct an after action review to assess 
the causes of the project issues; 2) submitting weekly progress reports 
to the Assistant Secretary for Environmental Management; and, 3) 
providing periodic progress reviews from the Assistant Secretary for 
Environmental Management to the Secretary of Energy; and, 4) holding 
periodic meetings where Bechtel senior corporate officials provide to 
the Secretary of Energy Bechtel's demonstration of its corporate 
commitment and project management capabilities to WTP.
    The Department is presently having all project management, project 
control, business, and technical aspects of WTP reviewed and evaluated 
by internal and external independent senior professionals. These 
recommendations will be reviewed and implemented as applicable to 
ensure the project is being planned and executed in accordance with 
commitments. In addition, beginning in the first calendar quarter 2006, 
a status report on the WTP project will be sent to Congress on a 
quarterly basis.

                    Question From Senator Alexander

    Question 1. There are plans to conclude some EM projects despite 
the fact that numerous facilities and properties will remain 
contaminated. What are your plans for finishing the job at these sites?
    Answer. DOE faces future cleanup activities from currently 
operational or excess facilities that are contaminated or overlay 
contaminated soil and groundwater. This work scope includes cleanup 
activities for the Department's excess facilities, including 
deactivation and decommissioning of facilities, cleanup of contaminated 
media, and disposition of excess nuclear and/or hazardous materials. 
The contamination is generally at facilities managed by the National 
Nuclear Security Administration, the Office of Science, and the Office 
of Nuclear Energy, Science, and Technology.
    The Department expects to develop plans for these facilities and 
properties in fiscal year (FY) 2006. The FY 2006 planning activities 
are expected to include updating the data related to defining the 
scope, cost and schedule. The Department anticipates being guided by 
its cleanup obligations under the Comprehensive Environmental Response, 
Coordination, and Liability Act.

                      Question From Senator Smith

    Question 1. In 2003, CH2MHill estimated that all of the wastes from 
the C-tank field at Hanford could be removed by September 2006, for a 
total of $90 million. However a recent Inspector General report states 
that the schedule won't be met, and the budget is likely to be $215 
million. Can you explain in detail the delays and the cost overruns? 
More importantly, what is the real schedule for emptying these tanks, 
and the rest of the tanks?
    Answer. The primary challenges impacting waste retrieval are 1) 
ensuring worker safety, and 2) the chemical complexity of the Hanford 
wastes. The Department has taken appropriate steps to ensure worker 
safety, such as placing tank farm workers on supplied air where 
necessary due to tank vapor concerns. The use of supplied air decreases 
worker productivity and can extend retrieval durations. The Department 
and the contractor are undergoing a study of these chemicals to assess 
where workers can cease the use of supplied air. Relative to chemical 
complexity, Hanford wastes are chemically unique due to the 
multiplicity of processes that generated those wastes. In some cases, 
the wastes are readily retrievable. In other cases, tank-specific 
technical challenges arise and must be addressed.
    As was discussed with the State of Washington, the Washington 
Congressional delegation, and committees of jurisdiction, including the 
Senate Energy and Natural Resources Committee on October 6, 2005, some 
elements within this milestone are in jeopardy. The Inspector General 
(IG) report IG-706 looked at one element within the M-45-00B milestone, 
i.e., completing the retrieval of all 16 tanks within C Farm by 
September 30, 2006. That element of M-45-00B is in jeopardy, yet the 
Department continues to strive to complete that element in full 
compliance with the M-45 retrieval criteria despite the challenges 
encountered in retrieving the C farm tanks. The three tanks retrieved 
to date have been retrieved in compliance with established Tri-Party 
Agreement (TPA) standards.
    The Department does not know at this time whether all elements of 
this complex milestone will be met by the date specified in the TPA.

                     Questions From Senator Bunning

    Question 1. I have learned from previous inquiries that the clean-
up contract for Paducah needed to be awarded in October, 2005 in order 
to have the new contractor transitioned and in place by January 2006. 
Please provide my office with evidence that DOE will have the new 
clean-up contractor in place in order to prevent another extension of 
the current clean-up contract.
    Answer. The contract was awarded on December 27, 2005, to Paducah 
Remediation Services. As requested by the companies, the unsuccessful, 
as well as the successful bidders were debriefed on January 11-12, 
2006. The companies have up to ten days (January 22, 2006) after these 
debriefs to file a timely protest with the U.S. Government 
Accountability Office. Nonetheless, the Department is proceeding with 
contract execution. The contract with Bechtel Jacobs was extended 
through April 23, 2006, to allow them to provide assistance to the new 
contractor.
    Question 2. We are over two years behind on having the clean-up 
contractor in place. Please provide my office with the evidence to show 
that we are still on schedule for an accelerated clean-up with a 
completion date of 2010.
    Answer. In October 2003, the Department signed an agreement with 
the Commonwealth of Kentucky that set forth a strategy to complete site 
cleanup by the planned accelerated cleanup completion date of 2019. 
This 2019 cleanup strategy has been incorporated into the enforceable 
site cleanup agreement between DOE, the Commonwealth of Kentucky, and 
the U.S. Environmental Protection Agency. Since Fiscal Year 2004, the 
Paducah budget requests have been based on achieving the 2019 cleanup 
date, and the Department has been requiring its remediation contractor 
to perform work consistent with the 2019 date.
    The Paducah Remediation small business contract was awarded in 
December 2005, accelerated cleanup work at the Paducah site is 
continuing to progress under the current remediation contract, as the 
new contractor transitions into place. While some projects (e.g., scrap 
metal) have experienced delays, and other projects (e.g., inactive 
facility decontamination and decommissioning and legacy waste 
disposition) are ahead of schedule, the project is on track to meet the 
2019 cleanup completion date.
    Question 3. The DOE Lexington Office was set up eliminate 
unnecessary delay of communication between Paducah and DOE 
headquarters. The technical direction for all work comes from 
Lexington, but certain administrative functions continue to go through 
Oak Ridge and the Consolidated Business Center in Cincinnati, Ohio. 
This structure puts Lexington at the discretion of these other offices 
for administrative approvals and assistance which can directly impact 
technical performance. If DOE can establish direct reporting for the 
Lexington office for technical matters, why can't they do the same for 
the administrative responsibilities?
    Answer. The Portsmouth Paducah Project Office (PPPO) reports 
directly to Headquarters regarding all mission-related activities and 
responsibilities. Support functions are provided by the Consolidated 
Business Center in Cincinnati, Ohio, for approximately 20 Office of 
Environmental Management sites, including the PPPO. The Department has 
determined that the consolidation of these functions in a central 
location for some small and medium-sized sites is the most cost-
effective, and appropriate approach.
    Oak Ridge continues to provide the following support to PPPO: 
safeguards and security (personnel security oversight, general physical 
security, control of classified matter, Nuclear Materials Control and 
Accountability, etc.) contracts/grants (e.g., limited administration of 
contracts and grants that originated from Oak Ridge Operations that 
have not yet been transferred to PPPO), and activities arising under 
the United States Enrichment Corporation (USEC) lease (certain 
administrative support for budget and finance activities arising from 
the USEC lease).
    No delay in communication or technical performance is expected as a 
result of this organizational structure.
    Question 4. When the new clean-up contract is awarded at Paducah, 
will the Oak Ridge office still have an administrative role with 
Paducah matters?
    Answer. The Oak Ridge Office will not have a role in administering 
the new Paducah remediation contract. The Office of Environmental 
Management is evaluating the current structure for Paducah project 
execution. As a result of this review, the Oak Ridge Office may have a 
continuing role at Paducah in connection with certain areas, such as 
safeguards and security and the administration of the Gaseous Diffusion 
Plant lease agreement between the Department and the United States 
Enrichment Corporation. This does not affect the line responsibility 
for budget and performance of the environment work at the site, for 
which the Manager, Portsmouth Paducah Project Office, reports directly 
to the DOE Headquarters.
    Question 5. The community in Paducah is trying to establish a 
vision for the long term strategy for the site. I am committed to the 
community and share their concern for the future. What is your office's 
role with regard to the post clean-up and reindustrialization of the 
Paducah site?
    Answer. The Department is committed to working with the community 
and other stakeholders at the Paducah site to ensure that they are 
included in the process for establishing a vision for site uses 
following cleanup. Our stakeholders have several avenues for 
participation at the sites. For example, our stakeholders can work 
through Site Specific Advisory boards, such as Paducah's Citizens 
Advisory Board, which provide formal recommendations to the Department 
with respect to future site uses. Stakeholders are also provided the 
opportunity to review and comment upon various cleanup documents, which 
include discussions of projected future land uses. The Department 
maintains a productive relationship with Paducah re-use organizations 
as they seek economic development and re-industrialization 
opportunities for the Paducah community.
    The Portsmouth Paducah Project Office's management also is 
available to speak with members of the public who wish to discuss the 
Paducah cleanup strategy. Once the Department has completed its cleanup 
activities at the Paducah site, responsibility for long-term management 
of the site will transfer to the Department's Office of Legacy 
Management.
    Question 6. When do you expect DOE to begin implementing a worker 
health and safety rule as required under Section 3173 of FY 2003 
Defense Authorization Act that follows Congressional intent?
    Answer. The Department has submitted a final rule to the Office of 
Management and Budget implementing section 3173 of the National Defense 
Authorization Act (NDAA). The Department expects to publish the final 
rule in the Federal Register by the end of the 2nd quarter of FY 2006. 
Based on section 3173 of the NDAA, these regulations ``shall take 
effect on the date that is one year after the promulgation date of the 
regulations.'' However, DOE will continue to enforce DOE Order 440.1A, 
Worker Protection Management for DOE Federal and Contractor Employees, 
and 10 CFR 850, Chronic Beryllium Disease Prevention Program, worker 
safety and health requirements through contractual means until the 
effective date of the final rule.
    Question 7. I just learned the start date for DUF<INF>6</INF> 
operations could be delayed because DOE is requiring the contractor to 
submit new design activity plans to comply with the Defense Nuclear 
Facility Safety Board's seismic data standards. These standards are 
more stringent than current DOE standards. The contractor has already 
submitted design plans to DOE that account for the geology of the site, 
and construction is underway. Is DOE still firmly committed to the May 
2007 start date for the DUF<INF>6</INF> operations?
    Answer. On September 30, 2005, the Deputy Secretary approved the 
Project Performance Baseline and Start of Construction for the depleted 
uranium hexafluoride (DUF<INF>6</INF>) project with expected 
commencement of operation in April 2008. Previous schedules were based 
on conceptual and preliminary designs that had not been validated 
through the Department's external independent review process. The need 
to adjust the previous schedules reflects the typical uncertainty 
associated with large construction projects during early design stages. 
The Department has higher confidence in the new schedule now that the 
design is complete.
    Since approval of the project baseline in September, we have seen 
continuous progress at the site.

                    Questions From Senator Bingaman

    Question 1. Mr. Rispoli, a number of my fellow members have been 
concerned about the Department's policy towards contractor employee 
pension plans at EM sites. These employees include incumbent as well as 
new hires at EM operations including Hanford, Paducah and the Waste 
Isolation Plant or those about to be closed including Rocky Flats and 
Fernald. There appears to be particular unease amongst employees and 
even contractors when an operation changes contracts with respect to 
credit for time-in-service as well as a disparity in overall benefits 
between incumbent employees who may be in defined benefit plans and new 
hires who may be in defined contribution plan. Other issues in the 
overall benefits disparity in a contract change include health care 
while working and in retirement. I cite these benefit combinations only 
as examples, they may of course vary site-to-site. Does EM have a 
uniform policy towards pension plans and if so would the Department 
please forward this policy to us at the earliest possible date and be 
prepared to brief staff and members?
    Answer. During the past several weeks, DOE officials have been 
briefing Senate and House staff members on the Department's general 
policy approach regarding the provision of pension benefits to 
Management and Operating Contractor (M&O) and former M&O contractor 
employees. Pursuant to this policy, incumbent employees who are 
employed by a contractor under a new contract(s) will remain in their 
existing pension plan(s) pursuant to plan eligibility requirements and 
applicable law; that is, ``if you're in, you're in.'' However, 
contractors selected for award of a new contract(s) will be required to 
provide market-based pension plans for new, non-incumbent employees 
hired after contract award. With respect to medical benefits for 
contractor employees, the Department is currently assessing its 
policies. The Department anticipates completing a formal policy 
statement concerning contractor employee medical benefits in the late 
winter or early spring timeframe. Like the pension policy for M&O and 
former M&O employees, the medical benefits policy would be applied 
Department-wide, not just to contracts at EM sites.
    Question 2. It is my understanding that at WIPP, the EM program has 
intervened a number of times in negotiations between the bargaining 
units and the WIPP contractor. Is this true? If this is true what 
specifically did the DOE say to the WIPP contractor?
    Answer. The Office of Environmental Management is not aware of 
intervention by the
    Department with the Waste Isolation Pilot Plant contractor, 
Washington TRU Solution, Inc., or the bargaining unit during labor 
negotiations.
    Question 3. Much has been credited towards the Rocky Flats closure 
by moving from performance based contract to incentive based 
contracts--that is the contractor receives more cash award for 
achieving milestones at an earlier date. Do you think this contracting 
model will work at long-term closure sites like Hanford, Savannah River 
or Idaho where the remediation involves the removal or isolation of 
liquid high level wastes?
    Answer. Yes, in fact, contracts similar to the one used at Rocky 
Flats were awarded at Idaho and for the River Corridor at Hanford (the 
former involves remediation of tank waste). In addition, the Department 
will review all contracting models for each acquisition and will 
utilize the model that will give taxpayers the best return on 
investment and yield the best results in public health and safety and 
protection of the environment. The Rocky Flats contract is a cost-plus-
incentive fee contract, and its attributes will be considered for 
Hanford and Savannah River liquid waste management scope of work in 
upcoming contract competitions this fiscal year.
    Question 4. In the case of Rocky Flats accelerated clean up Kaiser-
Hill received on the order of $500M for closing the site successfully 
and one year before the target date. I note that Rocky Flats did not--
like Hanford or Savannah--involve large reprocessing facilities which 
generated large volumes of liquid high level waste. Given that early 
Rocky Flats closure resulted in a $500M incentive award would the 
Department have to recalibrate the incentive award fee for the more 
difficult and long-term cases like Hanford?
    Answer. While sites like Savannah River and Hanford do have large 
inventories of liquid wastes unlike Rocky Flats, the Department will 
evaluate each contract requirement on a case-by-case basis to determine 
the appropriate incentive fee structure for these large facilities. 
Over the past few years, the Department has implemented aggressive 
performance-based contracting approaches that include clearly defined 
statements of work and results-oriented incentives. We will continue to 
put in place site-wide or project-specific incentives, tailored to each 
individual site or project mission, to try to produce significant cost 
and schedule savings and duplicate the success of the Rocky Flats 
closure site.
    Question 5. A recent GAO report on performance reporting found that 
the EM accelerated clean up effort was behind schedule for three of the 
most challenging and costly activities (1) disposing of transuranic 
waste, (2) disposing of radioactive tank wastes and (3) closing tanks 
of contaminated radioactive wastes. The GAO estimates that the EM 
program will not save the $50 billion as originally claimed under 
accelerated clean up with a total program cost of $129 billion by 2035. 
What program tools are in place so that the Congress can monitor not 
only the amount of waste cleaned up but the cost expended in meeting 
targeted milestones against the targeted cost?
    Answer. The Department of Energy is constantly working on improved 
ways to better report performance and the costs to attain program 
performance. Earned value management system is an industry standard 
that measures how planned work on a project was completed within 
expected costs and schedule and is now a tool being fully implemented 
throughout the Environmental Management (EM) program. Earned value data 
are collected from all the EM sites for all EM cleanup projects, both 
line item and expense funded, along with the targeted milestones using 
the Integrated Planning, Accountability, and Budgeting System--
Information System (IPABS-IS)--a single information management system 
for all the programs and activities overseen by EM.
    These data are reported monthly and are reviewed by EM project and 
program managers to track the status of projects and to implement 
recovery actions, if necessary. On a quarterly basis, the Assistant 
Secretary reviews project performance with site managers to assess 
project status and resolve issues. DOE plans to provide a new biannual 
report to Congress, using the earned value data by site. This report 
will also include annual budget estimates and life-cycle costs. This 
report will summarize progress on these measures and discuss issues 
associated with accomplishing the cleanup goals. This report should 
amount to a complete response to the U.S. Government Accountability 
Office's report and allow Congress the ability to monitor both the 
amount cleanup completed along with the cost expended in meeting 
targeted milestones.
    Question 6. The Nunn-McCurdy Act governs expenditures for 
Department of Defense acquisition programs triggering a set of 
notifications and actions when certain cost and milestone thresholds 
are exceeded. What is the Department's opinion to developing a similar 
set of guidelines for EM programs?
    Answer. The Department of Energy (DOE) currently has a comparable 
set of guidelines for notifications and actions by the acquisition 
executives for all capital asset projects under DOE Manual 413.3-1, 
Project Management for the Acquisition of Capital Assets. The Deputy 
Secretary, as the Secretarial Acquisition Executive (SAE) for DOE, must 
evaluate and approve any change in project scope or performance that 
affects the project's mission need as originally approved by the SAE at 
Critical Decision-0, Approve Mission Need. In addition, the SAE must 
review and approve any increase of six months or more in the original 
project completion date or an increase of $25 million or 25 percent of 
the original cost baseline as originally approved by the SAE at 
Critical Decision-2, Approve the Performance Measurement Baseline.
    In addition, the Office of Environmental Management (EM) has 
expanded the Department's requirements by establishing similar 
thresholds for all of its operating (i.e., expense funded) projects and 
has implemented additional control points internal to EM through the 
establishment of a Headquarters' Configuration Control Board (CCB). The 
CCB is designated and chartered as a management system by the Assistant 
Secretary for EM to ensure the proper definition, coordination, 
evaluation, and disposition of all proposed changes to the program 
elements under Headquarters' configuration control.
    This system also documents all requests for changes, justification 
for changes, and final decisions concerning project cost and milestone 
changes.
    Question 7. The OMB has used the Program Assessment Rating Tool, or 
PART, in addition to GPRA to bring accountability to the expenditure of 
funds by the agencies. On page 17 of the FY06 EM budget submission, the 
EM program received an overall PART score of 49 (ineffective) with a 20 
(failing) for ``results/accountability'' for Fiscal Year 2004, for 
Fiscal Year 2005 the overall score was 61 (adequate) with a 26 
(failing) for ``results/accountability'' due to a lack of cost and 
performance monitoring and for the Fiscal Year 2006 budget it says ``EM 
was not required to do a PART evaluation for the FY2006 budget given 
its participation over the last two years.'' Can you please explain 
what you mean that you were not required to perform a PART analysis 
given the past two years of failing grades in ``results and 
accountability''?
    Answer. The Office of Environmental Management (EM) was one of the 
first DOE programs that the Office of Management and Budget (OMB) and 
DOE selected to conduct a Program Assessment Rating Tool (PART) 
evaluation. Two PARTs were completed for EM in the first year--one for 
clean up (rated ineffective) and one for R&D (rated results not 
demonstrated). Both appeared in the FY 2004 Congressional Budget 
request. For the FY 2005 Budget, the two EM programs were re-evaluated 
in one PART and the program improved its PART score to 61 (adequate). 
EM was not reassessed for the FY 2006 Budget because it is OMB policy 
to assess programs using PART once every five years or when the program 
provides evidence of significant improvement. Although EM was not re-
evaluated using the PART, DOE-EM was requested to provide current data 
on the performance measures included in the PART Summary and report on 
the status of its follow-up actions. This information was reported with 
the FY 2006 President's Budget. Comparable information was collected 
again this year and will be reported in a new website, ExpectMore.gov, 
designed to better inform the public on how Federal programs are 
performing. ExpectMore.gov will be launched with the release of the 
President's FY 2007 Budget. The Department continues to use PART to 
identify areas of program management weaknesses and improve its 
programs to produce meaningful results for the taxpayer.
    Question 8. The National Academies recently released an interim 
report as required under last year's Defense Authorization Act on 
reclassifying the residual high level waste left in storage tanks at 
Savannah River National Laboratory. Their recommendation was that it 
might be better to decouple the removal of the bulk tank waste from the 
permanent grouting in of the residual waste until a better 
technological solution becomes available. What is the Department's 
opinion of the report's recommendation?
    Answer. The Department does not believe that, in general, removal 
of the bulk tank waste should be decoupled from the permanent grouting 
of the residual waste. A primary purpose of section 3116 of the 
National Defense Authorization Act of 2005 was to specify criteria that 
would permit tank closures and associated actions to go forward if the 
specified criteria were met. One of the criteria is that the highly 
radioactive radionuclides have been removed to the extent practical.
    The Department will work closely with the appropriate agencies in 
each State where storage tanks are located in making decisions. While 
the Department understands the importance of proceeding with tank 
closures in a timely manner, it will not proceed in cases where it 
determines that a delay in tank closure is called for to protect public 
health and safety and protection of the environment.
    Question 9. Do you know how stable this grout material is with 
respect to the long-lived radioactive residual waste?
    Answer. Yes, the Department has conducted studies which show the 
grout material will be stable with respect to the long-lived 
radioactive residual waste for at least 1,000 years.
    Question 10. Given that the Congress has not approved the transfer 
of clean up functions to the NNSA for their site specific generated 
waste--will EM continue to hold the function of cleaning up sites and 
waste streams from ongoing Department Activities?
    Answer. The Office of Environmental Management (EM) continues to be 
responsible for the legacy environmental cleanup work at National 
Nuclear Security Administration (NNSA) sites. NNSA is responsible for 
the management of any newly generated waste. EM retains budget 
authority, responsibility and accountability for all cleanup activities 
at NNSA sites. Under the NNSA Act, NNSA retains authority in directing 
its contractors and Federal personnel in conducting the cleanup.

                    Questions From Senator Cantwell

    Question 1. The Secretary has committed to me on multiple occasions 
that the Department is committed to Hanford cleanup in accordance with 
the Tri-Party Agreement (TPA). Yet, when suggested at the oversight 
hearing that the TPA should be redrafted, you seemed to agree. Do you 
support Hanford cleanup in accordance with the provisions of the Tri-
Party Agreement? If not, do you speak for the Secretary in reversing 
the Department's stated position to support the federal cleanup 
commitment contained in the TPA?
    Answer. The Department remains committed to the cleanup at the 
Hanford site in accordance with the Tri-Party Agreement (TPA). It is 
important to remember that the TPA is a ``living'' document that was 
designed to be updated. For example, there are TPA milestones to define 
new milestones at specified points in time. Similarly, new sections are 
added to the TPA, as appropriate. As with any ``living'' document, the 
TPA parties should continue to explore any and all mutually beneficial 
opportunities to improve safety, effectiveness, efficiency, and 
flexibility of the Hanford cleanup. The objective of the TPA is to 
ensure that cleanup is being accomplished in a safe and timely manner.
    Question 2. How many times have TPA milestones been amended?
    Answer. The total number of milestones and target dates currently 
exceeds 1,400 of which approximately 900 milestones and 290 target 
dates have been completed. In accordance with the terms of the Tri-
Party Agreement (TPA), there have been 442 approved change requests, 
six amendments, and three modifications known as ``Directors 
Determinations.'' Originally, in 1989, the TPA contained only 161 
milestones, all of which were enforceable.
    Question 3. How many times has the Department of Energy requested 
that a TPA milestone be amended?
    Answer. Under the terms of the Tri-Party Agreement (TPA), there 
have been 442 approved change requests, six amendments, and three 
modifications known as ``Directors Determinations.''
    Within these requests, the parties have agreed to adding 864 new 
milestones, deleting 168 milestones, and extending 208 milestones.*
---------------------------------------------------------------------------
    *The accompanying graph has been retained in committee files.
---------------------------------------------------------------------------
    Question 4. How many TPA milestones have been completed since the 
adoption of the agreement in 1989?
    Answer. Under the terms of the Tri-Party Agreement, 901 enforceable 
milestones and 292 unenforceable target dates have been completed.
    Question 5. How many times has a DOE request for TPA amendment been 
agreed to by the State of Washington and the EPA?
    Answer. All of the 451 Tri-Party Agreement changes to date have 
been the consensus of the three agencies. The original number of 
milestones, 161, has increased over time to the current number of 1,158 
enforceable milestones to date.
    Question 6. On October 28, the administration sent the Congress a 
list of proposed funding rescissions. Included in that list was a 
request to rescind $100 Million of previously appropriated funds from 
the construction of the Waste Treatment Plant. The administration 
included the Waste Treatment Plant rescission into a series of 
reductions that the administration termed ``. . . lower-priority 
federal programs . . .'' Do you believe that the construction of the 
vitrification plant is a lower priority federal program?
    Answer. The Waste Treatment Plant at Hanford is the Department's 
single largest and most complex construction project, the most 
significant project in the Environmental Management portfolio, and the 
Department is committed to completing the plant. Taking into account 
the technical and management issues associated with the Waste Treatment 
Plant, the Administration's proposal and the congressional 
appropriation support the fiscal year 2006 plans to continue 
construction while technical issues are being resolved and a new 
estimate at completion is being developed and validated.
    Question 7. Does the Department of Energy support the proposed 
rescission of funding?
    Answer. The Department supports the Administration's decision to 
dedicate needed resources to the relief efforts resulting from the Gulf 
Coast hurricanes. Taking into account the technical and management 
issues associated with the Waste Treatment Plant, the Administration's 
proposal and the congressional appropriation support the fiscal year 
2006 plans to continue construction while technical issues are being 
resolved and a new estimate at completion is being developed and 
validated.
    Question 8. If the Department does not support the rescission 
related to the Waste Treatment Plant, what has the Department done to 
convey that message to the President?
    Answer. The Department supports the need to balance the nation's 
priorities with the more immediate needs resulting from the Gulf Coast 
hurricanes. As you are aware, construction of the plant has been slowed 
due to significant technical challenges, which reduced near-term 
funding requirements for this project. Based on the status of the 
project, Congress decided to provide $521 million for the plant in 
2006, more than $100 million below the 2006 Budget request. Getting the 
Waste Treatment Plant back on track continues to be one of the 
Department's highest priorities.
    Question 9. What factors would the department consider when 
deciding whether to ship waste to a commercial disposal facility?
    Answer. The Department of Energy's (DOE) waste management orders 
and policies dictate the usage of commercial disposal facilities, which 
vary by type of waste. For example, high-level waste will be disposed 
of at the Yucca Mountain, Nevada, national repository and defense 
transuranic waste is being disposed of at the DOE Waste Isolation Pilot 
Plant in Carlsbad, New Mexico.
    It is the Department's current policy that low-level waste, owned 
by the DOE, be disposed of on-site, when possible, or off-site at one 
of DOE's regional disposal facilities. DOE policy does provide for use 
of commercial low-level waste disposal sites or facilities if specific 
conditions are met. Specifically, the Department must: 1) certify that 
use of the commercial facility represents safe and compliant disposal, 
in accord with the commercial facility's licensed capabilities; and, 2) 
demonstrate that use of commercial disposal is more cost-effective, or 
in the best interest of the government. To determine the best interest 
of the Federal government, the Department considers numerous factors 
including safety, security, compliance, schedule efficiency, long-term 
liability, and stakeholder and regulator acceptance. It is the 
Department's policy that waste disposal decisions be made in the 
context of life-cycle cost analysis, which includes the unit cost of 
disposal, pre-disposal activities, transportation, and post-closure 
liabilities. The Department is reviewing this guidance as part of its 
development of its National Low-Level Waste Disposition Strategy. The 
purpose of the National Disposition Strategy is to integrate and 
optimize low-level waste management activities throughout the complex.
    Question 10. The Department has yet to acknowledge that it will 
miss the September, 2006 milestone for cleanup at the C-Tank Farm. As 
you know, an October 2005 Inspector General report has projected that 
the C-Tank milestone will be missed. Is there some aspect of the IG 
report you disagreed with?
    Answer. The M-45-00B milestone is complex with multiple sub-
elements ranging from C-tank farm Retrievals and technology 
demonstrations to the submittal of Tank Waste Retrieval Work Plans and 
Integration Plans. A number of those sub-elements have been 
successfully completed and progress is being made on the remaining sub-
elements. The Department does not know at this time whether all 
elements of this complex milestone will be completed by September 30, 
2006, and, therefore, appropriately informed the State of Washington, 
the Washington Congressional delegation, and committees of 
jurisdiction, including the Senate Energy and Natural Resources 
Committee, that some elements of the M-45-00B milestone are in jeopardy 
of being missed. As noted in Appendix 3 to the Inspector General (IG) 
Report, the Assistant Secretary for Environmental Management (EM), 
concurred with the recommendations in the IG report, but disagreed that 
an updated waste retrieval plan and notification to regulators of 
changed schedules should be based on the limited retrieval experience 
to date. Rather, the Assistant Secretary indicated that the revised 
waste retrieval plan, cost, and schedule will be developed ``when 
additional meaningful operational data is (sic) obtained'' and that the 
best course of action relative to establishing new regulatory 
milestones is to ``defer revision of the existing milestones for C Farm 
retrieval until addition additional operational data is (sic) obtained 
on the tank retrievals currently ongoing.'' The Assistant Secretary 
noted that this course of action is ``Consistent with the concern 
identified in the report regarding limited retrieval experience.''
    Question 11. The October Inspector General report also found that 
missing the C-Tank Farm milestone may impact the ability of the 
Department to complete a 2018 milestone to cleanup waste from Hanford's 
single shell tanks. Does the Department agree with that assessment?
    Answer. We do not agree with estimating retrieval costs and 
schedules for the remaining approximately 145 single-shell tanks based 
solely upon retrieval results for the first one or two tanks. Recent 
tank waste retrievals have shown sharp performance improvements, e.g., 
Tank C-202 required only approximately 25 percent as much time to 
retrieve as tank C-203. DOE plans to develop a revised retrieval plan 
(after resolution of related issues regarding the Waste Treatment Plant 
and the tank farm contract) that takes into account the variety of 
factors that influence waste retrieval including the characteristics of 
the waste in each tank, lessons learned from all tank waste retrievals 
and retrieval technology tests to that point in time, and the 
logistical factors that influence tank waste retrieval rates.
    Question 12. What issues are coming from the ongoing reviews of the 
Waste Treatment Plant and what are your plans to get the project back 
on track?
    Answer. The Department, along with the U.S. Army Corps of Engineers 
and Bechtel National, Inc., is currently undertaking several major 
activities to ensure that we fully understand what is required to 
complete the project and begin operations. The Department is reviewing 
and evaluating the major project management, project control, business, 
and technical systems and processes by both internal and independent 
external senior professionals. An After Action Review is being 
conducted by an external independent firm to assess the causes of the 
issues surrounding the project. All recommendations will be reviewed 
and implemented as appropriate to ensure the project is being planned 
and executed responsibly.
    The Department has directed several actions to strengthen the 
project management system for the Waste Treatment Plant (WTP). A 
summary of keys actions include:

  <bullet> Establishing a senior-level WTP Oversight Team;
  <bullet> Hiring several experienced Federal personnel in the areas of 
        contracting, procurement, and contract law;
  <bullet> Certifying WTP Federal Project Directors to the highest 
        level of the DOE Project Management Career Development Program;
  <bullet> Clarifying roles and responsibilities of senior field 
        managers and contracting personnel;
  <bullet> Commissioning a Headquarters' Team to assess the Office of 
        River Protection compliance with DOE Order 413.3, Program and 
        Project Management for the Acquisition of Capital Assets;
  <bullet> Assuring the WTP contractor has an Earned Value Management 
        System in-place that fully complies with American National 
        Standards Institute/Environmental Industry Association (ANSI/
        EIA) 748-A-1998;
  <bullet> Regularly updating DOE senior management on the status of 
        the project; and,
  <bullet> Conducting rigorous periodic evaluations by the EM WTP 
        Oversight Team, and other DOE project oversight offices.

    Question 13. What are you doing or will you do to improve 
communications with the Congress, the State, and the stakeholders on 
the Waste Treatment Plant?
    Answer. Improving communications with all interested parties, not 
just the Congress, has been a priority of mine since entering office. 
The Department will continue to communicate with interested parties 
regarding the Waste Treatment Plant. The Department plans on a series 
of briefings with Congressional committees and State delegation members 
and the State, as the following activities are completed: After Action 
Report, December 2005 Estimate At Completion, External Reviews of the 
WTP Technical Capability/Cost/Schedule, and the U.S. Army Corps of 
Engineers Cost Validation of the Estimate At Completion. In regard to 
communicating with stakeholders of the State of Washington, senior 
officials from the Office of River Protection meet regularly with the 
Hanford Advisory Board and State of Washington representatives. Also, 
frequent site tours of the WTP project are given upon request that 
includes opportunities for questions and discussion.
    Question 14. What are you doing or will you do to ensure that any 
proposed supplement treatment technologies for single-shell tank waste 
are brought on line safely and in a cost-effective manner?
    Answer. Technologies that are being developed in the Office of 
Environmental Management (EM) program are tested and demonstrated to 
ensure that they meet or exceed safety requirements as required in all 
applicable DOE Orders, Resource Conservation and Recovery Act (RCRA) 
requirements, and the Hanford Federal Facility Agreement and Consent 
Order. For a technology to be considered for implementation, it must 
clearly be shown that it is more cost-effective than the current 
baseline technology selected.
    For example, the Demonstration Bulk Vitrification System (DBVS) 
pilot plant at Hanford will demonstrate the ability of the bulk 
vitrification supplemental treatment process to treat actual Hanford 
single-shell tank (SST) waste (waste from tank S-109). The management 
of the DBVS subproject is compliant with applicable DOE Orders, RCRA 
requirements, and the Hanford Federal Facility Agreement and Consent 
Order. The DBVS project will be evaluated at each design, construction, 
and operations step (Critical Design--CD) for safety and cost. The DBVS 
design will be completed prior to the emplacement of equipment. Prior 
to DBVS startup the system will undergo an On-Site Operational 
Readiness Review (ORR) that ensures all procedures and safety measures 
are in place.
    DOE considers cost-effectiveness as part of the evaluation of an 
alternative project technology, if it is to be deployed in the site's 
baseline operations. DOE is currently developing new and improved 
technologies for Waste Treatment Plant waste loading and melter 
performance, which could assist in the retrieval of SST wastes.
    Question 15. Which program of the Environmental Management budget 
is funding current efforts to develop supplemental tank waste treatment 
technology?
    Answer. The funding of current efforts to develop supplemental tank 
waste treatment technology is included in the budget of the Office of 
River Protection's Tank Farm Activities program.
    Question 16. What is DOE doing or will it do to develop other 
supplemental treatment technologies to treat the least radioactive 
waste in double shell tanks?
    Answer. The Office of Environmental Management's (EM) Technology 
Development and Deployment activities invest in innovative technologies 
which could be demonstrated to be evaluated and considered for 
deployment by site operations. Early development work on supplemental 
tank waste treatment technology was jointly funded by DOE-EM 
Headquarters and the Office of River Protection site operations. The 
Department is considering several technologies, with a focus on bulk 
vitrification. If, through tank waste demonstration, bulk vitrification 
is found to be capable of safely and effectively treating Hanford tank 
waste, it could be deployed in parallel to the Waste Treatment Plant. 
Additional technologies, such as Selective Dissolution and Fractional 
Crystallization, are being studied to optimize this supplemental 
technology.
    Question 17. The Tri-Cities community has several contract 
procurement concerns at Hanford. These include effective performance 
incentives, small business opportunities, and the DOE strategies to 
rebid the tank farms and central plateau work scopes. Also, I 
understand that DOE is moving ahead to rebid these Hanford contracts. 
As a member of the Senate Committee on Small Business and 
Entrepreneurship I am willing to work with DOE to resolve small 
business procurement issues, such as the credit DOE receives for small 
business procurements by its prime contractors. Would you be willing to 
participate in these discussions if they were structured in a manner 
that does not conflict with federal procurement laws and regulations?
    Answer. In accordance with section 6022(a) of Title VI of the 
Emergency Supplemental Appropriations Act for Defense, the Global War 
on Terror, and Tsunami relief, 2005, P.L. No. 109-13, the DOE and Small 
Business Administration entered into a Memorandum of Understanding 
(MOU) on September 30, 2005, setting forth a methodology for measuring 
the achievement of DOE with respect to contract awards to small 
businesses. This MOU defines how DOE receives credit for small business 
procurements by its prime contractors, as well as how DOE receives 
credit for the award of prime contracts to small businesses. The 
Department appreciates your offer to work with us and is willing to 
meet with you on small business issues.
    Question 18. The Tri-Cities community is dedicated to continue 
expanding the missions of the Volpentest HAMMER Training and Education 
Center beyond the training of Hanford cleanup workers. This initiative 
would reduce DOE-EM's commitment to HAMMER as the cleanup work force 
continues to decline. As part of the overall Hanford contract 
procurement strategy, will you evaluate the benefit of a separate 
procurement on HAMMER, perhaps as a small business set aside, that 
would facilitate the expansion of HAMMER's missions?
    Answer. We are currently working on a procurement strategy for 
large pieces of cleanup work and services at Hanford, including the 
scope currently under Fluor Hanford, which manages the Volpentest 
Hazardous Materials Management and Emergency Response Training Center 
(HAMMER) facility and whose contract expires at the end of fiscal year 
2006. As part of this process, we do plan to evaluate various 
contracting options for HAMMER. Our goal is to find an approach that 
reflects its ongoing role in training our cleanup workers and, at the 
same time, supports its ability to grow and prosper through a 
diversified clientele.
    Question 19. Are you willing to endorse and support these mission 
development activities with other parts of DOE, the Department of 
Homeland Security, the Department of Defense, and others?
    Answer. The Department utilizes the Volpentest Hazardous Materials 
Management and Emergency Response Training Center (HAMMER) facility to 
provide hands-on safety training for workers involved in environmental 
cleanup.
    The HAMMER facility remains available for use by other DOE entities 
and other agencies on a full cost recovery basis. Because HAMMER was 
established to ultimately be self-sustaining, the Department continues 
to encourage the development of new missions to offset the impacts of a 
declining Office of Environmental Management workforce in the future. 
The Department will cooperate with the U.S. Department of Homeland 
Security (DHS) to develop a strategy and a cooperative agreement to 
ensure that HAMMER remains available to meet its training needs.
    HAMMER is already involved in the training of fire, law 
enforcement, Customs and Border Protection, security, emergency 
medical, and other emergency response personnel for a wide-spectrum of 
regional and Federal agencies on a full cost recovery basis. A strong 
partnership has been forged between HAMMER and the Pacific Northwest 
National Laboratory to use HAMMER as a test bed to deploy new field 
technologies for homeland security personnel.

                     Questions From Senator Salazar

    Question 1. The Department will soon complete the environmental 
cleanup of its Rocky Flats plant west of Denver. In general, the 
cleanup has progressed well. But, as at many contaminated sites being 
cleaned up across the country, some contamination will remain in the 
ground. A part of the site will be designated a National Wildlife 
Refuge. It will be necessary, therefore, to impose certain restrictions 
on land use to ensure that the remedy remains protective of human 
health. Because existing legal mechanisms to restrict land use are not 
adequate for this purpose, many states have adopted or are adopting 
legislation to create enforceable use restrictions, or ``institutional 
controls.'' In 2001, the Colorado Attorney General's office drafted and 
sponsored such legislation, and, with the support of the Colorado 
Department of Public Health and Environment, the General Assembly 
passed the legislation unanimously. Governor Owens signed it into law. 
Colorado's institutional control legislation enjoyed strong support 
from both industry and the environmental community, because it reduces 
cleanup costs and it makes cleanups safer and more reliable. Colorado's 
legislation served as the model for the Uniform Environmental Covenants 
Act, which is now being considered in a number of states across the 
country. When I questioned you about the Department of Energy's 
willingness to comply with this Colorado law at Rocky Flats by entering 
into environmental covenants to restrict future uses of the site, you 
promised to look into this question. I understand that the Department 
of Energy has now committed to comply with Colorado law and is now 
negotiating a written agreement with the State. Can you confirm today 
that the Department of Energy will enter into environmental covenants 
for the Rocky Flats site and will you please explain the current status 
of the Department's discussions with the State?
    Answer. The Department of Energy fully supports the concept of an 
environmental covenant at Rocky Flats and has been working closely with 
the Colorado Office of the Attorney General and the Colorado Department 
of Public Health and Environment to define an implementation approach 
for the Colorado covenants law at the Rocky Flats site. The Department 
anticipates that agreement will be reached on the text of covenants 
between the U.S. Department of Energy and the State of Colorado prior 
to regulatory completion of the Rocky Flats Closure Project.
    Question 2. Financial savings in expedited clean up and bonus to 
Kaiser-Hill. I have heard estimates that the Department of Energy and 
the American public will save between $500 million and $600 million as 
a result of the early completion of the physical cleanup at Rocky 
Flats. What is the Department of Energy estimate of the cost savings 
realized as a result of the expedited clean up?
    Answer. The target cost for the Kaiser-Hill Closure Contract 
effective February 2000 is $3.987 billion. Actual cost, still subject 
to final audit, is $3.443 billion reflecting a savings of $544 million. 
Kaiser-Hill is expected to receive $153 million (28 percent) of that 
savings as additional incentive fee under the terms of the contract. 
The taxpayers would receive $391 million of the savings (72 percent).
    Question 3. What is the Department of Energy's current estimate of 
the bonus that will be paid to Kaiser-Hill as a result of completing 
the physical cleanup in October 2005 instead of December 2006?
    Answer. The schedule incentive in the Kaiser-Hill Closure Contract 
is $15 million for physical completion on December 15, 2006. The 
maximum Kaiser-Hill can earn for acceleration of the cleanup is $20 
million if completed by March 31, 2006. Further acceleration to October 
2005 earns Kaiser-Hill no additional fee for schedule performance.
    It should be noted that the total fee that can be earned, from all 
schedule, cost and performance incentives is approximately $510 
million. This fee was in recognition of: (1) meeting the target cost, 
$342 million, (2) coming in below the proposed target cost (e.g., 
contractor earns thirty cents of every dollar under the proposed target 
to a maximum fee), $149 million, and, (3) as noted above, finishing 
cleanup before March 31, 2006, $20 million. The total available fee 
pool was approximately $562 million.
    Question 4. What is the total amount of all bonuses that have been 
paid to date by the Department of Energy to Kaiser-Hill for services at 
Rocky Flats?
    Answer. Under the current contract, Kaiser-Hill, Inc., has been 
authorized to collect provisional fee payments of $225,348,794 in 
advance of final fee determination, as of September 30, 2005. Final 
determination of fee earned is contingent upon validation of physical 
completion of all contract scope, and total closure contract target 
costs.
    It should be noted that the total fee earned, from all schedule, 
cost and performance incentives is approximately $510 million. This fee 
was in recognition of: (1) meeting the target cost, $342 million, (2) 
coming in below the proposed target cost (e.g., contractor earns thirty 
cents of every dollar under the proposed target to a maximum fee), $149 
million, and, (3) as noted above, finishing cleanup before March 31, 
2006, $20 million. The total available fee pool that can be earned is 
approximately $562 million.
    Question 5. The regulatory transition at Rocky Flats from the 
jurisdiction of the Department of Energy's Office of Environmental 
Management to the Office of Legacy Management will mark the first such 
transition in the nation at a major cleanup site. Over the course of 
the cleanup, and especially as we near the completion of the cleanup, 
Environmental Management has made many promises and commitments to the 
State of Colorado and to the local communities surrounding Rocky Flats. 
These commitments include the procedures and standards for monitoring 
programs, the management of surface water impoundments, and other long 
term management activities. The State of Colorado, the local 
governments and the residents of the surrounding communities are also 
concerned about the ability of the Department of Energy to respond 
promptly to any emergency situations that present real or potential 
releases of radiation in excess of the governing standards. I, and 
other members of Colorado's Congressional delegation, will be closely 
watching the transition from Environmental Management to Legacy 
Management to be sure that these past commitments are honored and that 
the Department of Energy retains the expertise necessary to properly 
monitor and to respond to any violations of the standards. What is the 
Department of Energy doing to ensure that the Office of Legacy 
Management will fully honor all of the commitments made by the Office 
of Environmental Management at Rocky Flats?
    Answer. The Office of Legacy Management (LM) intends to fully honor 
all of the commitments made by the Office of Environmental Management 
(EM) at Rocky Flats. Representatives of both Offices, at the 
Headquarters and site level, worked very closely during the final 
phases of site cleanup and the beginning of site transition to ensure 
that LM has full and complete knowledge, understanding, and support of 
all post-closure monitoring and maintenance commitments. The staff 
members for all of the environmental monitoring and maintenance, 
records management, and information technology activities are previous 
Rocky Flats employees. In addition, LM is the lead for negotiating the 
modification of the Rocky Flats Cleanup Agreement to include post-
closure activities. LM is also developing the Long-Term Surveillance 
and Maintenance Plan for all post-closure activities at the site with 
EM support. These responsibilities ensure a clear partnership with EM 
and LM in securing regulatory completion for Rocky Flats, and in 
fulfilling all commitments for the site.
    Question 6. What is the Department of Energy doing to ensure that 
the knowledge and skills developed by Environmental Management will be 
immediately available to aide in the response to emergency events, 
should they occur?
    Answer. The Office of Environmental Management (EM) has been 
working with the Office of Legacy Management (LM) to develop emergency 
procedures for the future surveillance and maintenance of the site, 
after LM assumes jurisdictional responsibility. During the transition 
period from physical completion of cleanup to regulatory completion and 
transfer of jurisdiction from EM to LM, LM is assisting EM in 
implementing appropriate emergency management procedures in accordance 
with applicable requirements.
    In addition, the Department has ensured that it has site-specific 
knowledge and skills available at Rocky Flats by transferring several 
Rocky Flats Office EM employees to LM. This staff will help ensure the 
continuity of knowledge of site history needed for an appropriate 
response to routine, as well as emergency, situations.
    The Department also maintains national assets, such as the 
Radiological Assistance Program (RAP), in the event of a radiological 
emergency. The RAP Teams are the first responders for a suspected 
radiological emergency and are designed to arrive on-site within four 
to six hours. Rocky Flats is within RAP Team Region 6, which maintains 
its offices at the Department's Idaho Operations Office.
    Question 7. Will you notify me and this Committee promptly if you 
become aware of any funding limitation or any bureaucratic roadblock 
that is negatively impacting the transition from Environmental 
Management to Legacy Management?
    Answer. The Department will promptly notify you and the Committee 
should any issues arise that could adversely impact transition.
    Question 8. The Senate recently adopted an amendment to the 
Department of Defense Authorization bill, sponsored by me and Senator 
Allard, which provides direction and funding for the acquisition of 
certain mineral rights at Rocky Flats to facilitate the transfer of 
affected lands to the U.S. Fish and Wildlife Service for creation of a 
National Wildlife Refuge. As you know, this amendment was offered in 
order to resolve a long-standing disagreement between the Departments 
of Energy and Interior over the impact of these mineral rights on the 
transfer of the subject lands from Energy to Interior and the creation 
of the Wildlife Refuge. In anticipation of enactment of these 
provisions into law, what will the Office of Environmental Management 
do so that the program to acquire these mineral rights can proceed as 
quickly as possible?
    Answer. The Ronald W. Reagan National Defense Authorization Act 
(P.L. 109-163) signed on January 6, 2006, authorized $10 million for 
the Secretary of Energy to purchase the essential mineral rights at the 
Rocky Flats Environmental Technology Site. In preparing for the 
potential purchase of privately held mineral rights at Rocky Flats, the 
Department of Energy conducted an appraisal of mineral rights values 
(sand and gravel). The appraisal is complete, and the information will 
be used by the Department when effecting the purchase of mineral rights 
from willing sellers.
    Question 9. In the written testimony submitted by each of you, you 
refer to the need for a skillful, dedicated workforce to accomplish the 
ambitious goals of the
    Department of Energy's environmental cleanups. Ms. Tuor's testimony 
credits the ``efforts and innovation'' of the Rocky Flats workforce as 
one of the factors that contributed to the completion of the Rocky 
Flats cleanup under budget and ahead of schedule. Assistant Secretary 
Rispoli's testimony describes the need for ``effective incentives for 
the federal and contractor workforce for superior performance'' in 
future cleanup efforts. At Rocky Flats, the workers in the field made 
many contributions that helped Kaiser-Hill and the Department of Energy 
achieve this great success. These contributions include:

  <bullet> Participating in safety work planning and in the Joint 
        Company Union Safety Committee, resulting in very few project 
        closures due to safety violations.
  <bullet> Determining methods for deploying chemical decontamination 
        that led to the successful decontamination of more than 85 
        percent of the sites' 1,457 gloveboxes to low level. This 
        method of decontamination greatly reduced the cost of disposal 
        and improved safety by avoiding dangerous cutting operations.
  <bullet> Developing cans and containers for the treatment, packaging 
        and disposal of the site's high content plutonium wastes.

    In a recent article in the journal Weapons Complex Monitor, Ms. 
Tuor is quoted as saying,

          ``When we started listening to them on safety, the trend was 
        really changed . . . What we learned, and we saw it time after 
        time after time, was if we got them involved in planning of the 
        work, and the identification of the hazards and the controls, 
        and we put together with them a reasonable work process, they 
        would exceed our production expectations every time.''

    We have learned from Rocky Flats that the dedicated participation 
of the workers on the ground is critical to the safe, cost-saving and 
expeditious completion of these projects. Frankly, I am concerned that 
the message to workers from the early completion at Rocky Flats is not 
helpful. When the workers at Rocky Flats put their hearts and their 
minds and their backs into the project and helped complete the cleanup 
fourteen months ahead of schedule, many workers lost the lifetime 
medical benefits they would have received if the project had been 
completed on time.
    Contractors like Kaiser-Hill receive a bonus for early completion, 
but the workers may feel that they are not rewarded fairly upon early 
completion. What are the Department of Energy and its contractors doing 
to assure the workers on the ground that their retirement benefits will 
not be reduced or eliminated if these workers help complete the cleanup 
ahead of schedule?
    Answer. Neither Kaiser-Hill nor the Department took the Rocky Flats 
workforce by surprise by the 2005 closure objective. In fact, Kaiser-
Hill negotiated collective bargaining agreements with the Guards (1999) 
and the Steelworkers (2001) that provided more generous compensation 
and retirement eligibility components as part of Kaiser-Hill's 
objective of providing just the sort of rewards for the workforce as 
your question suggests are appropriate. Although these sorts of 
collective bargaining commitments by Kaiser-Hill were subject to DOE 
approval (or disapproval), the Department did not seek to limit 
extension of these expanded benefits for the Rocky Flats workforce. 
Their added costs, of course, are borne by the taxpayer.
    It should be understood that there is no certainty that any 
individual Rocky Flats employee would have been continuously employed 
there accruing pension and benefits service credits had the completion 
date occurred a year or two years later. That is because there would 
have been continued phased layoffs based on particular work completions 
done during the progress of the items comprising the closeout work 
elements. There was no commitment made to the representatives of the 
Rocky Flats workforce that this natural progression would not occur. On 
the contrary, the represented workforce was fully apprised of the early 
closure objective and successfully negotiated enhanced compensation and 
retirement eligibility benefits, as its collective bargaining 
representatives determined were most advantageous for the members of 
its bargaining units.
    The Department's general approach regarding the provision of 
pension benefits to facility management contractor employees is that 
incumbent employees who are employed by a contractor under a new 
contract will remain in their existing pension plans pursuant to plan 
eligibility requirements and applicable laws; that is, ``if you're in, 
you're in.'' However, a contractor selected for award of a new contract 
will be required to provide market-based pension plans for new non-
incumbent employees hired after contract award. The Department is 
currently assessing its approach with respect to reimbursing the costs 
of medical benefits for contractor employees.
                                 ______
                                 
       Responses of Nancy Tuor to Questions From Senator Domenici

    Question 1. I am particularly interested in what Congress did or 
did not do to enable the success at Rocky Flats. Were there any 
programmatic or financial decisions enabled by the recent legislation 
that, in your mind, directly contributed to your efforts?
    Answer. In my view, there were a couple of significant factors 
related to role of Congress in the success of Rocky Flats.
    First, the predictable and stable funding delivered by the House 
and Senate Appropriations Committees was absolutely critical to support 
the structure of the closure contract, and ultimately the project's 
success. Our team was hired to complete this specific work based on our 
collective experience in project management. Among the most important 
elements of effective project management is a robust baseline that 
included over 16,000 separate activities for senior management to plan 
and tract progress to the overall project completion goal. An essential 
component to a well-developed baseline is predictable funding to match 
the forecasted activities.
    Second, our efforts at Rocky Flats enjoyed considerable attention 
and support from key leaders in Congress. Starting with our own 
delegation, including Senator Allard who addressed this Committee 
hearing, and other Congressional leaders, such as Chairman Domenici, we 
were fortunate to have supporters who tracked our progress. Through 
this informed oversight, Congress was able to anticipate and offer 
assistance when necessary to help the project to completion. For 
example, some quantity of our weapons-grade plutonium was designated 
for shipment to Savannah River site for disposition through the mixed-
oxide reactor fuel program. When some concern from South Carolina 
developed over this program, Senator Allard, Senator Graham and key 
leaders in the House and Senate committees of jurisdiction were able to 
resolve the issue. Effectively, this allowed us to complete our 
shipments and, ultimately, complete the project.
    Question 2. I am also very interested in the cooperative nature of 
the relationship between the Rocky Flats project and the environmental 
regulators. This is not a common occurrence at major DOE cleanups. What 
were the elements that promoted increased cooperation and collaboration 
among the agencies in this regulatory relationship?
    Question 3. What elements of your contract were the most important 
drivers in this cleanup?
    Answer. As discussed during the hearing, I am submitting the 
attached document detailing a number of key enablers in the success of 
the Rocky Flats project. Specifically, the document addresses elements 
of the contract and interactions with environmental regulators.

     FUNDAMENTAL CHANGES ENABLING SUCCESSFUL CLOSURE, ROCKY FLATS 
            ENVIRONMENTAL TECHNOLOGY SITE, DECEMBER 6, 2005

    Several fundamental changes were implemented at the Rocky Flats 
Environmental Technology Site (RFETS) that contributed to its 
successful closure. The most significant of these are: the contract 
incentivized total project performance and allocated risk between the 
government and the contractor. Second, appropriate expertise and talent 
were retained and community outreach was conducted, such that the right 
people/organizations were always engaged in the project. Third, strong 
foundations for success were created by the development of broad 
consensus on the RF end-state and the government/contractor commitment 
to safety, compliance and state-of-the-art practices. Fourth, the State 
and Federal regulators were fully integrated into the cleanup decision-
making process and vested in project success, resulting in a revised 
regulatory agreement with a bias for action, more efficient/predictable 
decisions, and completion of accelerated actions. Fifth, the pace of 
risk reduction was accelerated. Finally, the entire project was funded 
on a consistent and predictable schedule and enjoyed strong bipartisan 
support.
    Background. In 1995, the Rocky Flats Environmental Technology Site 
(RFETS) was one of the Department of Energy's (DOE) biggest and most 
challenging efforts to cleanup and close a former nuclear weapons site, 
and the largest Site designated for accelerated closure. Like many 
other DOE facilities, it had been shrouded in Cold War secrecy. Much of 
the surrounding community viewed Rocky Flats negatively, expressing 
concerns about environmental contamination and potential threats to 
public health which were fueled by the 1989 FBI raid. Furthermore, 
stakeholders were becoming increasingly impatient and distrustful, as 
cleanup and risk reduction activities were not prioritized and 
activities during that period were directed primarily to security and 
maintenance.
    At that time, Rocky Flats was subject to a very complex regulatory 
structure due to differing requirements under the Superfund, hazardous 
waste, clean water, drinking water, and clean air laws, both state and 
federal; and, due to overlapping jurisdiction between the U.S. 
Environmental Protection Agency (EPA) and Colorado's environmental 
agencies. The relationship between DOE's environmental regulators and 
the Defense Nuclear Facility Safety Board was also new, not completely 
defined, and further complicated cleanup activities.
    By 1995 the corporate culture at the Site was bankrupt, suffering 
from five years of an uncertain mission, no clear vision for the 
future, and a revolving door of external oversight and assessment 
requirements. Since the time of the FBI raid in 1989 and the ensuing 
safety shut-down, the Site's mission was in question and little work 
was being performed. Despite the hundreds of millions of dollars spent 
to address contamination between 1991 and 1995, little effective 
cleanup and risk reduction had occurred. The workforce was extremely 
demoralized and relations with the Site's unions were strained. Issues 
fundamental to the new closure mission were unknown, including end-
state, future land-use, and soil cleanup levels. DOE estimated it would 
take 70 years and cost more than $36 billion to clean up the site. The 
Management & Operating (M&O) contract and fee structure remained 
intact.
    The Site's ability to maintain compliance with environmental 
requirements was also in question. DOE's 1991 Interagency Agreement 
(IAG) with Colorado Department of Public Health and Environment (CDPHE) 
and EPA provided a legally enforceable framework for assessing and 
remediating environmental contamination. It specified completion of 268 
milestones over a 12-year period. These were primarily ``paper 
milestones,'' calling for the submittal of investigation plans and 
reports to CDPHE and EPA for approval, and did not require actions/
results based on risk reduction priorities. The transaction costs of 
gaining the approval of both agencies, frequent adjustments to scope of 
work, and negotiating ``good cause'' for milestone revisions were high. 
Further, it became clear that many milestones could simply not be met 
and there was no clear path to resolve the domino effect this would 
have on subsequent dependent milestones. The regulators lost confidence 
in the ability of the Site to meet commitments, thus further 
diminishing their willingness to adjust the milestones.
    As a result, DOE entered negotiations with EPA and CDPHE to amend 
the IAG. Negotiations were unsuccessful until the parties realized that 
they shared a common vision and goals, and that the command and control 
paradigm should change to accomplish their mutual interests as soon as 
possible.
    Closure Strategy. Fundamental changes in several key areas were 
required to successfully close the Site. These are briefly summarized, 
below.

          1. Performance Contracts. DOE departed from the traditional 
        M&O contracting approach utilized at weapons production 
        facilities and adopted a contracting strategy in late 1993 that 
        abandoned the traditional M&O cost-plus-award-fee approach in 
        favor of a performance based integrating management contract. 
        The 1995 contract with K-H tied 85% of fee to discrete outcomes 
        or deliverables (performance measures). Under the new contract, 
        DOE rescinded the authority of low and mid-level DOE personnel 
        to provide detailed and sometimes conflicting contractor 
        direction and, instead, designated high-level managers as 
        Contracting Officer Representatives (CORs). The COR-designation 
        provided for better integration and allowed the contractor to 
        determine how work would be accomplished.
          In 2000, a second DOE contract with K-H replaced the first, 
        further accelerating the target completion date to 2006. K-H's 
        performance justified a sole source award for the follow-on 
        contract, building upon the parties' experience and successes. 
        The structure of the 1995 performance measures, incentives and 
        planning cycles transitioned to the 2000 Cost-Plus-Incentive-
        Fee contract format. The 2000 closure contract authorized all 
        project completion work at the time of signing, provided the 
        contractor with a great amount of flexibility for work 
        sequencing and allocation of resources, incentivized a 
        relentless drive for closing the site, and established a 70/30 
        (government/contractor) risk-sharing ratio for cost under-and 
        over-runs. Finally, the 2000 performance contract included 
        specific DOE commitments about what services/items it would 
        provide and when they would be provided, such as receiver sites 
        for Special Nuclear Material and radioactive waste.
          2. Human Relations. Both DOE and K-H realized the value of 
        bringing the right talent to the table and in retraining and 
        redirecting the highly skilled workforce that remained at Rocky 
        Flats. DOE selected K-H in 1995, in part, based upon the 
        environmental remediation expertise of its parent CH2MHill, and 
        K-H's commitment to engage high-quality management, policy, 
        legal, and technical experts and subcontractors, and to retain 
        a discouraged but knowledgeable and capable workforce. K-H 
        invested in and reinvigorated the workforce, emphasizing safe 
        work practices, retraining its steelworkers to perform D&D 
        work, offering performance incentives, and providing out-
        placement services to all when their part of the project was 
        concluded. DOE and K-H also shared the realization that they 
        could not achieve the desired results alone. Regulatory 
        agencies, state and local governments, Congress, citizen groups 
        and environmental groups had been vocal critics in the past; 
        active participation and support from these groups was 
        consciously cultivated by the DOE/K-H senior management team. 
        Indeed, the successful closure of the Site could not have been 
        achieved without this coalition's focus upon key results and 
        willingness to embrace creative, innovative approaches.
          3. Strong foundations. DOE and K-H built a strong foundation 
        for ultimate success in the early years, most notably in the 
        form of--

    <bullet> End-State Vision. DOE and K-H developed a ``straw man'' 
            end-state proposal in 1995, offering an image of the Site 
            in 2015. By so doing, it provided a beginning point for 
            thoughtful discussion among regulatory agencies, state and 
            local governments, Congress, citizen groups and 
            environmental groups. As modified to reflect their 
            consensus, the Vision and underlying assumptions became a 
            commonly shared, powerful statement of the closure goals 
            for Rocky Flats. This vastly important 8-page statement of 
            common ground led to a fundamental change in DOE's 
            relationship with its regulators, the community and its 
            contractor.
    <bullet> Safety Culture. A strong emphasis was placed upon 
            identifying and mitigating hazards, maintaining a safe 
            workplace, and performing all work safely. A safe workplace 
            was embraced as a necessary performance standard, and the 
            Site began its transition back from expert-based to 
            standards-based performance. As the project progressed, 
            safety was fully incorporated as a fundamental component of 
            success. K-H's management team measured safety on a daily 
            basis, recognizing that it is the key factor in maintaining 
            a healthy workforce and continuing productivity.
    <bullet> State of the art practices, procedures and data systems 
            were implemented and adjusted as needed throughout the 
            Project. These included rigorous project management 
            principles and reliance upon life cycle baseline planning.
    <bullet> Robust programs to assure compliance with all requirements 
            were created. Moreover, program termination planning was 
            initiated 3 years before the target completion date to 
            ensure that compliance programs would be terminated as soon 
            as their underlying purpose was fulfilled and an orderly 
            transition would occur to DOE's Office of Legacy Management 
            for all continuing requirements.

          4. RFCA. The end-state Vision was codified in RFCA as a non-
        enforceable preamble and appendix, providing guidance to future 
        decision-makers. The function of the regulatory agreement 
        fundamentally shifted, from one containing numerous procedural 
        controls over DOE to one that enabled accelerated actions to 
        achieve the consensus end-state as soon as possible. Several 
        basic propositions of RFCA became significant factors in the 
        successful closure of the Site, including its bias for action, 
        in the form of--

    <bullet> Prioritizing risk reduction activities to assure the 
            elimination of the highest risks first;
    <bullet> Conducting the cleanup activities as Accelerated Actions, 
            not waiting to initiate remediation until completion of 
            site-wide investigations and publication of the final 
            remedy decision;
    <bullet> Streamlining the decision processes, allowing for 
            utilization of standard operating procedures for recurring 
            conditions;
    <bullet> In-process environmental characterization during 
            remediation thereby allowing work to proceed early while 
            nevertheless providing full and accurate characterization; 
            and,
    <bullet> Site-wide remediation action levels (avoiding debate for 
            each separate accelerated action) based upon reasonably 
            foreseeable land use (first, as an open space; subsequently 
            established as a congressionally mandated wildlife refuge). 
            These action levels were calculated to assure that in the 
            aggregate, after completion of the accelerated actions, the 
            risk profile of the Site would satisfy the requirements of 
            CERCLA and RCRA and most likely result in no further 
            cleanup actions being required.

    RFCA also redefined DOE's regulatory relationships to achieve more 
efficient and predictable decisions, in the form of--

    <bullet> High level commitments from the RFCA signatories 
            (Assistant Secretary for DOE-EM, Acting Regional 
            Administrator for Region 8, EPA, Executive Director of 
            CDPHE, and RF Field Office Manager) to its end-state 
            vision, goals, objectives and processes allowed every 
            person involved in the RF closure/cleanup to understand the 
            Project's direction;
    <bullet> Consultative process among DOE (and K-H as its prime 
            contractor), CDPHE and EPA, emphasizing early-and-frequent, 
            rather than announce-and-defend, communication;
    <bullet> Regulatory integration between RCRA and CERCLA so that all 
            requirements would be achieved through a single process, 
            without needless duplication of effort;
    <bullet> Lead-regulator designations so that one agency would have 
            primary but contingent decision authority within its sphere 
            (work-versus statute-based day-to-day oversight), reserving 
            final authority to each agency according to its statutory 
            mandates;
    <bullet> Rapid dispute resolution. Each organization encouraged its 
            personnel to make agreements at the lowest working level 
            possible. Disagreements were raised to the next level of 
            managers quickly, going up all the way to the Governor, EPA 
            Administrator, and Secretary of Energy if need be;
    <bullet> Integrated sitewide life cycle planning addressing high 
            risk reduction actions typically outside the ambit of an 
            environmental regulatory agreement (such as non-enforceable 
            target dates for stabilizing/removing plutonium solutions 
            and residues in aging systems housed in aging buildings) 
            and,
    <bullet> Mutual respect for the parties' differing statutory and 
            contractual responsibilities, as well as trust in the bona 
            fides of each, developed as a result of implementing these 
            provisions and the roadmap to success provided by the 
            Vision. This, in turn, led to an ever-stronger foundation 
            for sound and efficient cleanup decisions.

          RFCA established rolling milestones and aligned them with the 
        budget planning process. No more than 12 milestones would be 
        set for any fiscal year, each to denote key results to be 
        achieved within the following year plus two future years. This 
        allowed goal-setting participation in the federal budget 
        process by the regulators and stakeholders. The future year 
        milestones could be adjusted, according to the circumstances, 
        including project sequencing, budgetary, and other 
        considerations.
          5. Risk Reduction. The pace of risk reduction was accelerated 
        through

    <bullet> Early actions to address highest risks first by 
            stabilizing, consolidating, and removing the nuclear 
            material. K-H shrank the Protected Area and consolidated 
            storage of plutonium into one building thereby 
            significantly reducing the ``mortgage'', then reprogrammed 
            the saved money into other accelerated D&D and 
            environmental remediation projects;
    <bullet> Broad consensus on the radionuclide soil action levels 
            (RSALs) was reached by working with the RFCA Parties and 
            communities. A key element in the evolution of the RSALs 
            was making them risk-based. This allowed the community and 
            site to focus on the surface and near-surface contamination 
            which drove risk rather than the radionuclide contamination 
            at greater depth. (NOTE: In reality, the community and 
            regulators got a very good deal--the surface soil clean up 
            was greatly expanded due to lower action levels while it 
            turned out that very little deep contamination existed.)
    <bullet> Success breeds success. Early building demolitions and 
            tank closures were completed, and all promised reports were 
            delivered satisfactorily and on-time. To resolve historic 
            non-compliance, DOE entered into orders on consent with 
            agreed compliance plans. These actions helped to establish 
            DOE/K-H credibility, provided tangible evidence that 
            closure could be accomplished, and demonstrated the Site's 
            commitment to successful closure on-time. It also allowed 
            K-H and the RFCA parties to practice the consultative 
            process in non-controversial projects before moving on to 
            the harder cases. These corollary results of early actions, 
            in turn, helped to create and sustain a shared momentum 
            toward closure.

          6. Innovation and Technology. K-H completed the closure 
        project based upon sound science and good business practices, 
        bringing in outside expertise as needed (e.g., the Actinide 
        Migration Evaluation Panel). K-H also encouraged creativity in 
        responding to technical challenges (e.g., the use of a passive 
        groundwater treatment system; cerium nitrate as a glove box 
        decontaminant; unique packaging for oversized equipment; and 
        adaptation of commercial equipment for D&D purposes). It was 
        essential in each case to stay focused on the cleanup issue and 
        how to apply innovative technologies to identified needs, 
        avoiding the trap of innovations in search of an application.
          7. Other factors contributing to the successful closure of 
        Rocky Flats. Several additional parties and circumstances were 
        significant. These include:

    <bullet> A shared commitment to successful closure by DOE-HQ and 
            complex-wide field office cooperation;
    <bullet> Strong bipartisan support in Congress, both from the 
            Colorado delegation and from key leaders in the House and 
            Senate;
    <bullet> Stable project funding, which allowed for mortgage 
            reduction and effective project planning;
    <bullet> Strong leadership from the Colorado State government;
    <bullet> Community concerns about potential offsite contamination 
            were addressed early by DOE funding for the Water Diversion 
            project to route potentially contaminated water away from a 
            city-owned drinking water reservoir; and, by a thorough 
            investigation of the offsite downwind area which concluded 
            that offsite contamination was nonexistent or so minimal as 
            to present no significant risk. Further, the Health 
            Advisory Panel sponsored by CDPHE, with financial support 
            from DOE, concluded that the surrounding community 
            residents have never been subject to significant increased 
            health risks by their proximity to Rocky Flats;
    <bullet> DOE-HQ publicly committed that there would be no onsite 
            disposal of waste.
        Response of Nancy Tuor to Question From Senator Salazar
    Question 1. In the written testimony submitted by each of you, you 
refer to the need for a skillful, dedicated workforce to accomplish the 
ambitious goals of the Department of Energy's environmental cleanups. 
Ms. Tuor's testimony credits the ``efforts and innovation'' of the 
Rocky Flats workforce as one of the factors that contributed to the 
completion of the Rocky Flats cleanup under budget and ahead of 
schedule. Assistant Secretary Rispoli's testimony describes the need 
for ``effective incentives for the federal and contractor workforce for 
superior performance'' in future cleanup efforts. At Rocky Flats, the 
workers in the field made many contributions that helped Kaiser-Hill 
and the Department of Energy achieve this great success. These 
contributions include:

  <bullet> Participating in safety work planning and in the Joint 
        Company Union Safety Committee, resulting in very few project 
        closures due to safety violations.
  <bullet> Determining methods for deploying chemical decontamination 
        that led to the successful decontamination of more than 85 
        percent of the sites 1,457 gloveboxes to low level. This method 
        of decontamination greatly reduced the cost of disposal and 
        improved safety by avoiding dangerous cutting operations.
  <bullet> Developing cans and containers for the treatment, packaging 
        and disposal of the site's high content plutonium wastes.

    In a recent article in the journal Weapons Complex Monitor, Ms. 
Tuor is quoted as saying,

          ``When we started listening to them on safety, the trend was 
        really changed . . . What we learned, and we saw it time after 
        time after time, was if we got them involved in planning of the 
        work, and the identification of the hazards and the controls, 
        and we put together with them a reasonable work process, they 
        would exceed our production expectations every time.''

    We have learned from Rocky Flats that the dedicated participation 
of the workers on the ground is critical to the safe, cost-saving and 
expeditious completion of these projects. Frankly, I am concerned that 
the message to workers from the early completion at Rocky Flats is not 
helpful. When the workers at Rocky Flats put their hearts and their 
minds and their backs into the project and helped complete the cleanup 
fourteen months ahead of schedule, many workers lost the lifetime 
medical benefits they would have received if the project had been 
completed on time.
    Contractors like Kaiser-Hill receive a bonus for early completion, 
but the workers may feel that they are not rewarded fairly upon early 
completion. What are the Department of Energy and its contractors doing 
to assure the workers on the ground that their retirement benefits will 
not be reduced or eliminated if these workers help complete the cleanup 
ahead of schedule?
    Answer. This question is appropriately addressed by the Department 
of Energy.

</pre></body></html>
